<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: A MIDTERM EVALUATION OF THE LOCAL UPDATE OF CENSUS ADDRESSES PROGRAM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




OVERSIGHT OF THE 2000 CENSUS: A MIDTERM EVALUATION OF THE LOCAL UPDATE 
                      OF CENSUS ADDRESSES PROGRAM

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 1999

                               __________

                           Serial No. 106-71

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
61-820 CC                   WASHINGTON : 2000





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
               Esther Skelley, Professional Staff Member
                           Amy Althoff, Clerk
           David McMillen, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 29, 1999...............................     1
Statement of:
    Heinz, Jessica, Los Angeles City Attorney's Office; and 
      Michel Lettre, assistant director, Maryland Office of 
      Planning...................................................   109
    Maguire, Jack, planning/GIS manager for the county of 
      Lexington, SC; George Pettit, assistant town manager of 
      Gilbert, AZ; and Don Rychnowski, executive director of the 
      Southern Tier West RP&D Board..............................    61
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office.......    35
    Prewitt, Kenneth, Director, Bureau of the Census, accompanied 
      by John Thompson, Associate Director for Decennial Census, 
      Bureau of the Census; and Preston Jay Waite, Assistant to 
      the Associate Director for Decennial Census, Bureau of the 
      Census.....................................................     9
Letters, statements, et cetera, submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     8
    Heinz, Jessica, Los Angeles City Attorney's Office, prepared 
      statement of...............................................   112
    Lettre, Michel, assistant director, Maryland Office of 
      Planning, prepared statement of............................   125
    Maguire, Jack, planning/GIS manager for the county of 
      Lexington, SC, prepared statement of.......................    64
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Information concerning new construction program..........    91
        Letter dated February 9, 1999............................    27
        Prepared statement of....................................     6
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      prepared statement of......................................    38
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida:
        Followup questions and responses.........................    97
        Prepared statement of....................................     3
    Pettit, George, assistant town manager of Gilbert, AZ, 
      prepared statement of......................................    74
    Prewitt, Kenneth, Director, Bureau of the Census, prepared 
      statement of...............................................    15
    Rychnowski, Don, executive director of the Southern Tier West 
      RP&D Board, prepared statement of..........................    84

 
OVERSIGHT OF THE 2000 CENSUS: A MIDTERM EVALUATION OF THE LOCAL UPDATE 
                      OF CENSUS ADDRESSES PROGRAM

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 1999

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn Building, Hon. Dan Miller (chairman of the 
subcommittee) presiding.
    Present: Representatives Maloney, Ryan, and Davis.
    Staff present: Thomas W. Brierton, deputy staff director; 
Jenifer M. Safavian, chief counsel; Timothy J. Maney, chief 
investigator; David Flaherty, senior data analyst; Erin 
Yeatman, press secretary; Esther Skelley, professional staff 
member; Jo Powers, assistant press secretary; Amy Althoff, 
clerk; Michelle Ash, minority counsel; David McMillen and Mark 
Stephenson, minority professional staff members; and Ellen 
Rayner, minority chief clerk.
    Mr. Miller. Since we have a quorum present with the two of 
us, we will proceed. We will start with an opening statement 
that I will present, and then Mrs. Maloney will have one, and 
then we will proceed to our first panel.
    As we begin this hearing today, please allow me to 
reiterate the very important goal that we all share, that we 
all want the most accurate census possible next year. As a 
result, we are here today to receive an interim update on the 
local update of census addresses [LUCA] for the 2000 census. We 
have heard glowing reports from the Census Bureau on the LUCA 
process and some mixed results and reports from out in the 
field. So, we're here today to see just how the process has 
been working. Please allow me to reiterate that this is an 
interim report. The LUCA report is ongoing, and this is in no 
way intended to be a final report of the process.
    The GAO findings that I will be referring to is a review of 
the city-style address portion of LUCA, or LUCA 1998. It is my 
understanding that the city-style addresses cover approximately 
80 percent of the Nation's homes. The LUCA program was designed 
to improve the accuracy of the decennial census by partnering 
the Census Bureau with local and tribal governments to review 
and correct the master address file. The master address file is 
an address list that identifies all housing units nationwide. 
It is really the building block for the census, and it is 
imperative that the address file be as complete and accurate as 
possible.
    In fact, in a 1995 report, the National Academy of Sciences 
asserts, ``Approximately one-half of the census undercount is 
attributable to missing housing units.'' The LUCA program was 
made possible by the Census Addresses List Improvement Act of 
1994, which for the first time ever authorized representatives 
from both local and tribal governments to review and correct 
census address files prior to census day. The Census Bureau has 
asked local governments to review address lists to help 
pinpoint individual and clusters of missing housing units, 
misallocations, or incorrectly displayed political boundaries. 
Who better to point out corrections than local officials who 
live and work in that area? I must say, that while I think LUCA 
is a great program and a vital part of the decennial census, I 
would be remiss if I said I believed LUCA alone replaces the 
need for post census local review. I believe that a review or 
quality check of the address list is essential before and after 
census day.
    We have heard previously that LUCA has garnered a very high 
participation rate. However, the GAO's finding on LUCA 
quantified the participation rate at 40 percent. I am somewhat 
perplexed with this discrepancy. I'm still concerned that if we 
rely solely on LUCA, the vast majorities of cities and towns 
not participating in LUCA will have no quality control at the 
local level.
    According to GAO's findings, the Census Bureau has received 
over 7.7 million suggested changes to the address file as a 
result of the LUCA 1998 process. Over 5 million of these 
suggestions were additions to the address file. These 
preliminary numbers are extraordinary to me.
    While checking the housing counts before the census through 
LUCA is worthwhile--I believe it pales in comparison to the 
quality check done after census day. And the more we can 
involve local government in the census, the better.
    With that being said, I look forward to an open and 
informative discussion today. It is my understanding that the 
Census Bureau is presently in the late stages of the LUCA 
program. We are honored to have Dr. Prewitt with us again here 
this week to report on how the LUCA program is working thus 
far. The GAO has conducted a survey on the ongoing process and 
we will hear their preliminary findings.
    In addition, we have several participants in the LUCA 
program who have traveled here from around the country to 
provide us with some firsthand insight into the process, and I 
look forward to hearing witnesses today. Mrs. Maloney.
    [The prepared statement of Hon. Dan Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.001
    
    [GRAPHIC] [TIFF OMITTED] T1820.002
    
    Mrs. Maloney. Thank you, Mr. Chairman. I am pleased that 
you have scheduled this hearing on the local update of census 
addresses program [LUCA]. The program is new for the 2000 
census and designed to correct some of the problems of the 
past. Even though the program is not yet completed and final 
results are not available, congressional oversight of LUCA is 
entirely appropriate.
    I also want to thank you for accommodating the wishes of 
the minority with regard to witnesses. I would like to mention 
and applaud the hard work of Representatives Thomas Sawyer and 
Thomas Petri, former members of the Census Subcommittee. After 
the 1990 census, they realized that one of its major 
deficiencies was the way in which local governments had the 
opportunity to review addresses in their jurisdictions. They 
worked together in a bipartisan manner to improve the process, 
and the result was Public Law 104-130, the Census Address List 
Improvement Act of 1994.
    I believe this program represents a tremendous improvement 
over the local review as it was conducted in 1990. LUCA is a 
partnership between the Census Bureau and local and tribal 
governments across the Nation. It marks the first time that 
these governments can review and update the address list of the 
census before the census is actually conducted. The hope is to 
produce a master address file which is substantially more 
complete than in the past by drawing on the expertise of local 
governments.
    The local review program, which occurred after the 1990 
census, was judged a failure by the Congress and outside 
experts. It only added 80,000 households, and half of those 
were in two cities, Detroit and Cleveland. Less than 25 percent 
of eligible governmental units participated. By contrast, the 
Census Bureau reports that to date, the new LUCA program has 
added well over 2 million addresses. In areas with city-style 
addresses, participation has more than doubled what it was in 
1990; 52 percent of all eligible governments, representing 85 
percent of the covered households, have participated.
    Mr. Chairman, I think this is a promising start. I am sure 
there are problems; there are bound to be in a program as large 
and as complex as LUCA. Those problems will need to be examined 
and addressed. I hope we can do that in the bipartisan manner 
in which the program was developed. Thank you very much. I look 
forward to the witnesses.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T1820.003

    Mr. Miller. Mr. Davis, do you have an opening statement?
    Mr. Davis. Well, thank you very much, Mr. Chairman. As a 
matter of fact, I do. First of all, let me commend you for the 
number of these hearings that are being held and for the 
efforts that you are making to make sure that we provide the 
kind of oversight and have the kind of information that is 
necessary to understand what is going on with the Census Bureau 
and the taking of the census. So, I want to thank you for 
convening this hearing.
    And as census day rapidly approaches, I think, too, that it 
is important we continue to evaluate our plan to ensure we have 
the most accurate census in the history of our country. This 
partnership between the Census Bureau and local governments is 
one that is commendable. Tribal governments, especially, 
nationwide should lead to a vast improvement in accuracy and 
completeness of the address list for the 2000 census.
    This pre-census local review provides a real opportunity 
for local governments to get involved earlier in the process 
and to help improve the outcome of the 2000 census. In 1990, 
local and tribal government officials were allowed only 15 days 
to review the number of addresses in each census block. LUCA 
will provide 3 months for participants to review the address 
list and related maps.
    I'm also pleased that of the 16,030 eligible local and 
tribal governments, that 8,400 participated in the LUCA program 
for city-style addresses. This represented 52 percent of the 
eligible governmental units. Those governments included 85 
percent of the eligible housing units. There are also reports 
that of the over 30,000 governments in non-city-style areas, 
that 10,779 governments participated.
    I look forward to hearing the testimony of Dr. Prewitt with 
respect to some of the challenges and successes that we have 
encountered to date. In addition, I look forward to the 
testimony of other witnesses who will share with us today. So, 
I thank you, Mr. Chairman, and I look forward to this hearing.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.004
    
    Mr. Miller. Thank you. If I could ask the first panel to 
stand and raise your right hands if you would, please?
    [Witnesses sworn.]
    Mr. Miller. Thank you. And let the record acknowledge that 
the three witnesses have responded in the affirmative. And with 
that, Dr. Prewitt, it's a pleasure to have you here again, as I 
said, this week.

 STATEMENT OF KENNETH PREWITT, DIRECTOR, BUREAU OF THE CENSUS, 
ACCOMPANIED BY JOHN THOMPSON, ASSOCIATE DIRECTOR FOR DECENNIAL 
CENSUS, BUREAU OF THE CENSUS; AND PRESTON JAY WAITE, ASSISTANT 
 TO THE ASSOCIATE DIRECTOR FOR DECENNIAL CENSUS, BUREAU OF THE 
                             CENSUS

    Dr. Prewitt. Chairman Miller, it is a particular pleasure 
to be here today. The last time we met, we obviously started 
the testimony by reiterating our concern about the continuing 
resolution. You produced for us, and we are really deeply 
appreciative of that. Had we gone into the next 2 or 3 weeks 
without the mark that has now been presented to the President, 
it would have been very difficult for the census, as you know. 
So, we are extremely pleased by the work that you did.
    Mr. Miller. I might note that, you know, if there is 
another CR needed, this is really for 4 weeks rather than 3 
weeks. Is that correct?
    Dr. Prewitt. Yes.
    Mr. Miller. But we have done as good a job as we could and, 
of course, everybody is working together on this, so I am glad. 
I appreciate those comments.
    Dr. Prewitt. And, it is a pleasure to talk to you today 
about the LUCA program. I am accompanied by John Thompson, the 
Associate Director for Decennial Census, and also Jay Waite, 
the Assistant Director for the Decennial Census. I will provide 
the oral testimony, and if there are technical questions, we 
may turn to them.
    Mr. Chairman, in your opening comments you commented that 
if we relied solely on LUCA, you would be concerned, and I 
appreciate that concern. The first, most important point to 
make is that LUCA is part of a multi-part process of 
interlocking, often overlapping programs designed to create our 
address file. An address file can be improved then from one of 
three sources, and to put LUCA in context, I want to just 
briefly reiterate that principle.
    When efforts to compile the address list for census 2000 
began in the early part of this decade, and they won't be 
completed until next year, fiscal year 1999 saw the completion 
of key steps in building the address list. In August, we 
completed preparation for the address label tape that now 
contains about 119 million addresses. The work of our local and 
tribal partners in LUCA contributed heavily to this 
accomplishment, but we also used the U.S. Postal Service and 
our own review and address listing operations. So, this is a 
three-tiered strategy, not a single-tiered strategy.
    It has been a massive complex job, it has involved 
developing and running nearly 1,300 individual computer 
programs, involving more than 530 million lines of code. The 
programs were designed to crate 440,000 large-format multicolor 
map sheets, nearly 10 million pages of address listings for 
review by local and tribal governments, more than 6.1 million 
smaller black and white map sheets, and 13 million pages of 
address lists for use by our field staff. So, it is large and 
complicated.
    I want to very quickly describe the major procedures in the 
two different regions--mailout/mailback and then in update/
leave. To remind us all, what we call mailout/mailback focuses 
primarily on the 96 million housing units that have city-style 
addresses, where they get their mail from the post office. 
Examples of a city-style address would be 101 Main Street or 
310 Oak Street, Apartment A. These are mostly, but not 
exclusively, in major urban centers. In these areas we compile 
the address list and the Postal Service delivers the 
questionnaires.
    Since early in the decade, the Bureau has been working to 
find a way to improve the address list and to correct the 
deficiencies in the 1990 development process. Early is the key 
word. At this point in the last census, we had minimal input 
from the U.S. Postal Service and minimal to nonexistent input 
from the local and tribal governments in compiling our address 
list. For 2000, then, we have a completely different order of 
engagement already with these two other major partners.
    Working with the U.S. Postal Service has identified new 
streets that have been built since the 1990 census. We have 
added these streets and associated address information to our 
geographic data base, and we have updated the address list with 
new housing unit addresses built since the 1990 census.
    This process added approximately 7 million addresses to the 
base list that we had carried over from 1990. Then, of course, 
in addition to cooperation with the Postal Service, we have 
worked with our LUCA partners, and I will discuss that in more 
detail below. Members of the committee have already 
acknowledged, or noted, approximately half of the eligible 
governments, or about 8,400 have participated. Our current 
estimate is these jurisdictions represent 91 percent of all 
addresses in the mailout/mailback areas.
    In addition then to the Postal work and the LUCA work, we 
have conducted our own block canvassing operation. To ensure 
uniform quality and a complete census address list, regardless 
of LUCA participation, the Census Bureau field verified the 
entire mailout/mailback portion of the address list. This 
operation took place the first half of 1999 and identified 
additions, address corrections, and deletions to the address 
file.
    In my written testimony there is one attachment, a one very 
straightforward table, which I will refer to briefly at this 
moment. It illustrates the effect of LUCA and block canvassing 
on the address list for the mailout/mailback areas. You'll see 
at the top that the original master address file had addresses 
that number slightly over 90 million. That is after we had done 
the work with the Postal Service. If you go down to the bottom, 
you will see it is now 96 million, which means that the 
combination of LUCA, block canvassing, and address listing by 
the Bureau has added 6 million addresses. You also will see 
that under the additions, which initially numbered 11 million, 
that a large number of them came from both LUCA and block 
canvass. That is about 3 million. Block canvass alone found 
5\1/2\ million, and the LUCA process, as it has already been 
noted, found about 2 million independently, slightly more than 
2 million.
    However, an address list correction process also includes 
deletes. And as you look at the numbers there, you see that we 
found it necessary to delete as many as 5 million addresses. 
The vast majority of those were deleted through our block 
canvass operation, and then there is some conversion issues as 
well. But that gives you an overview--and I want to stress--an 
overview of the fact that we have had more than one operation 
going on in order to assure the best city-style address list 
that we can construct.
    Let me then quickly refer to the update/leave areas and how 
we have conducted those operations. That area includes about 24 
million housing units. They have many different kinds of 
addresses, mostly in small towns, rural areas, where address 
systems have less geographic structure. An address might be 
Rural Route 1, it might be a Postal Box number. In this area, 
as we have stressed before, census enumerators will deliver 
questionnaires to every housing unit on the list, and they will 
at the same time check for any missing addresses.
    In the update/leave area, the Census Bureau created the 
initial 2000 address list through a systematic field operation 
called address listing. Temporary Census Bureau staff visited 
every housing unit in their assignment areas to obtain, where 
possible, the occupant's name, mailing address, and telephone 
number. If a housing unit did not have a clearly posted 
address, the address lister recorded a location description. In 
all cases, the address lister also recorded the relevant census 
geographic codes to document the location of each housing unit 
and noted the housing unit's location on the Census Bureau map. 
The Census Bureau then keyed the addresses and related 
information to add it to the address list. This process listed 
approximately 24 million addresses.
    Then as we had done in the city-style areas, we turned to 
our local partners through the LUCA program and invited nearly 
30,000 local and tribal governments, entirely or partially 
covered by the address listing operation, to review the 
relevant portions of the census 2000 address list. And, it has 
been noted about 10,000 or 36 percent of those units have 
participated in the program. This represents about two-thirds 
of all addresses in the update/leave areas.
    Approximately 5,000 of the governments then returned 
corrected block counts and identification from about 114,000 
blocks. We have now rechecked our address list for those 
blocks, added the corrected information where appropriate 
through the master address file and, of course, we are now in 
the process of sending our results back to our LUCA partners.
    To complete the LUCA process, we provide to each of the 
participants that have sent in corrections our response to 
their suggestions. This is called final determination. They can 
use the results to decide whether they wish to appeal any 
address to the Central Address List Review Appeals Office that 
has been established by the Office of Management and Budget. 
Participants will have 30 days to review the list and file an 
appeal. By law, the appeals are all to be decided before the 
decennial census date in order to allow sufficient time to 
prepare and deliver questionnaires.
    In late 1999, the Census Bureau will also provide an 
opportunity for participating governments to review the list of 
special place addresses. As has been mentioned before to this 
committee, local and tribal governments with city-style 
addresses will also have an opportunity beginning in January to 
identify newly constructed housing units that we will need to 
visit to determine if they should be enumerated.
    We also will continue to update the address file with work 
from the U.S. Postal Service. We call these the refreshes from 
the USPS information. The last will be included in January 
2000, and the additional addresses from these refreshes will be 
delivered questionnaires.
    The process as described covered more than 99 percent of 
the housing units in the United States and Puerto Rico. In very 
remote areas, and areas with significant seasonal resident 
population, the Census Bureau will employ a list method of 
enumeration. That is a very quick overview.
    Mr. Chairman, I now will address the three specific issues 
listed in your letter of invitation. Your first question: 
illustrate the participation rates of eligible local 
governments in the LUCA program and explain the Census Bureau's 
definition of participation.
    We define as participating, those governments that received 
address materials for review and have not, to our knowledge, 
officially dropped out of the program. In order to receive 
materials for review, localities had to express an interest in 
participating and submit a signed pledge to maintain the 
confidentiality of the materials.
    A government jurisdiction could include both mailout/
mailback and update/leave procedures, and thus could be invited 
to participate in both phases of the LUCA program. Based on 
this definitional construct, the overall participation rate was 
approximately 44 percent, and this did include 85 percent of 
the country's addresses. The participation rate differed for 
mailout/mailback areas. It was about 50 percent, and as I said 
before, it included 91 percent of those addresses. The rate for 
update/leave areas was about 36 percent and included about 67 
percent of the addresses.
    The second question, Mr. Chairman, was discuss the 
percentage of households in the United States that are covered 
by the LUCA program and explain some of the hazards to local 
governments for not participating. As I have already suggested, 
over 99 percent of the U.S. housing units are in areas covered 
by the LUCA program.
    With respect to the question of hazards, participating 
governments used their knowledge about local situations to help 
the Census Bureau improve the quality of the address list for 
their areas. Governments that did not participate in LUCA 
missed this opportunity to help ensure a complete and accurate 
address file, but as I have explained, LUCA is just one of 
several ways that we compile addresses.
    We realize that many local and tribal governments may not 
have the staff, resources, or expertise needed to participate 
in the LUCA program. And thus, we have taken steps where 
necessary to compensate for this. I have already mentioned the 
block canvassing. We added this to ensure uniform quality and a 
complete census 2000 address list regardless of LUCA 
participation. The Census Bureau determined in the summer of 
1997 that we needed to add a 100 percent field verification 
activity in areas with mostly city-style addresses. We believed 
this operation was needed to ensure address list completeness 
and quality.
    In the update/leave/mailback areas, census enumerators will 
conduct a 100 percent field canvass of addresses at the time 
they deliver questionnaires. And, we have significantly 
strengthened quality control procedure in this area. These 
efforts will help compensate for those areas that did not 
participate in the LUCA program. To be emphatic on this point, 
census 2000 includes a direct Census Bureau on-the-ground 
effort covering the entire United States, walking every city 
and town block and driving every rural road.
    Your third question, Mr. Chairman: please address the 
concerns of local governments regarding delays in returning the 
corrected address lists to the local governments for LUCA 1998. 
These are serious legitimate concerns. The Census Bureau 
experienced problems and delays with its initial plan. We then 
put in place a plan to correct these earlier problems and set 
for ourselves a more realistic schedule.
    We appreciate that changes to an announced program make it 
difficult for our partners who, themselves, must plan ahead in 
their use of staff and resources. Their frustration is 
understandable. Below I will explain how the new plan does try 
to compensate by reducing the operational burdens. 
Nevertheless, I want to emphasize that we believe these to be 
legitimate and serious concerns and that there were delays 
between what we had promised we would deliver and what we did 
deliver. The Census Bureau paid a price in a public relations 
setback with our partners. But we believe the design changes 
have improved the quality of the address list, which is the 
goal that we all share.
    That is, in exploring the issue of delay, I would like to 
draw a distinction between delay and the ultimate product, and 
the quality of the ultimate product. The Census Bureau has made 
every effort to inform local and tribal officials as soon as 
possible when program changes became necessary and to minimize 
the affect of those changes whenever possible. It is my belief 
that a significant majority of the local and tribal partners in 
the LUCA program have found the Census Bureau to be responsive 
to their concerns.
    Indeed, since I wrote these words, Mr. Chairman, I have had 
an opportunity to read the testimony the GAO will be presenting 
to you momentarily, and we note with some pleasure that on the 
key issue of the responsiveness, the quality, and the 
timeliness of the Census Bureau's response on LUCA, somewhere 
in the neighborhood of 10 to 15 percent of the jurisdictions 
expressed concerns, which is to say in the neighborhood of 85 
percent to 90 percent are reporting a very great or moderate 
degree of appreciation of the timeliness and the quality and 
responsiveness of the Census Bureau. We take some pleasure in 
the report of the GAO on that score.
    Indeed, I am pleased to report--I will not use glowing 
language, but despite the problems we have encountered, our 
local and tribal partners have been able to participate, those 
that wish to, in what we now think is a successful program. It 
is not a program without problems, but it is, in general, a 
quite successful program, I think, as the GAO report confirms. 
We encountered problems, but because we started early, we had 
time to make refinements and to correct the problems. Through 
our extensive outreach efforts, nearly twice as many local and 
tribal governments are participating in LUCA as participated in 
the 1990 program. And as we all now have said, these cover 
about 85 percent of all addresses.
    I earlier noted that we tried to reduce burden on our 
partners compared to the original design. To illustrate this, 
consider the issue of returning address corrections to the 
local and tribal officials. Under our original plan, the LUCA 
program would have had seven steps. Based on what we learned in 
dress rehearsal, the Census Bureau simplified and streamlined 
its plan. This change involved combining two steps, detailed 
feedback, with the step of final determination.
    Basically, this change means that we are simplifying the 
program for participants. We will provide them the information 
after we have verified, not just the disputed, all addresses 
provided by the participants that do not match the results of 
the block canvassing operation. It saves time in the schedule, 
because we do not need to produce, deliver, and ship detailed 
feedback materials separately from the final determination 
material. This means that we are able to start verifying 
addresses sooner because we will no longer have to wait for the 
reaction of the local and tribal governments.
    I should note--and this is an important point--we will mail 
questionnaires even to addresses that did not match to the 
block canvassing operation, but we will not conduct nonresponse 
followup to those addresses. We will conduct nonresponse 
followup only if the address has been verified. But all 
addresses will get the questionnaire.
    You have also heard about delays in our LUCA program for 
update/leave. As a result of these delays, we are forced to 
compress the review time that local and tribal governments had, 
but it is important to stress that even as we compressed the 
review time, we changed the procedure substantially. That is, 
in the update/leave areas, the local participants were 
initially expected to review on an address by address basis. 
But now in the new program, they only have to review at the 
level of housing unit counts at the block level, a 
fundamentally different set of responsibilities.
    So Mr. Chairman, in conclusion, I would like to emphasize 
that despite the problems that we have encountered--and they 
have been serious, and we apologize for them--we think that the 
LUCA program has contributed to the overall quality of the 
address list. But second, that it is only one thing leading to 
the quality of that address list. It is also our own on-the-
ground work that matters, and it is also our work with the post 
office. I think that we do go into census 2000 with an address 
list that is a vastly improved product from the one that we 
used in 1990. Thank you.
    [The prepared statement of Dr. Prewitt follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.005
    
    [GRAPHIC] [TIFF OMITTED] T1820.006
    
    [GRAPHIC] [TIFF OMITTED] T1820.007
    
    [GRAPHIC] [TIFF OMITTED] T1820.008
    
    [GRAPHIC] [TIFF OMITTED] T1820.009
    
    [GRAPHIC] [TIFF OMITTED] T1820.010
    
    [GRAPHIC] [TIFF OMITTED] T1820.011
    
    [GRAPHIC] [TIFF OMITTED] T1820.012
    
    [GRAPHIC] [TIFF OMITTED] T1820.013
    
    Mr. Miller. Thank you. Did Mr. Waite or Mr. Thompson have 
any statement? We are going to try to stick with the 5-minute 
rule, because we do have four panels today, and we want to make 
sure we have plenty of time. I know that a lesson we learned in 
1990 was the critical role of the address list and the 
inadequacies of that list. And in the 1994 legislation that 
Mrs. Maloney was referring to by Mr. Sawyer and Mr. Petri, the 
Bureau is working to move it along. Briefly, summarize the 
total improvements we have made in addressing this issue of 
1990. I mean, this whole LUCA program is part of it, but how 
much better are we off today than we were 10 years ago in 1989? 
I mean, very briefly.
    Dr. Prewitt. I think the best way to answer that is to 
simply say that in 1989, we, essentially, were working simply 
from a Postal address file. We never walked the streets. I am 
going to make sure we get it right. I wasn't there in 1989. Mr. 
Thompson was.
    Mr. Miller. Mr. Thompson.
    Mr. Thompson. In 1989, we had an address list for the urban 
areas that we purchased from a commercial vendor, and we had 
gone over the ground once, and we sent it to the post office on 
two occasions. We had not had at that time a thorough review by 
local governments of the list. In fact, we didn't have the 
legislation that we now have that would have allowed for an 
effective review. So basically, we sent a commercial list to 
the post office for several updates, and we had gone over the 
ground once with the list.
    Now, compare that to 2000, we have actually received and 
worked with the post office's address file all decade. We have 
been matching it to the 1990 address list. We have been 
improving our address list throughout the decade. We have been 
able to share our address list with local governments for them 
to review, and I think they have done that quite effectively, 
and we have also gone over the ground. So, I think we are 
considerably ahead of where we were in 1989.
    Mr. Miller. Do you have a number of the additional costs? I 
mean, I know we have put a lot more resources in it. We did 
some supplemental before your time, Dr. Prewitt, but 
supplementals to be able to do this master address list. Do you 
have an idea of the total cost of the master address list? And 
especially, even comparing it with 1990, because I think a lot 
of people are critical of the high cost of the census compared 
to 1990. And one of the costs is addressing. One of the major 
problems of 1990 is the address list.
    Dr. Prewitt. I could provide that information to the 
committee. It is not readily available to me right now.
    Mr. Miller. Well, I'd be interested in the additional cost. 
We know the significance. I think the supplemental one was $100 
million alone to do the list. Let me get clarification on this.
    I mean, one of the disappointments, I think, is the low 
participation by local governments. I wish there was more. You 
know, we hear back in our districts and around the country of 
local community leaders, how it is important and how they need 
to participate. And then, I guess we are getting a 40 percent 
participation rate, low 40's. So, that has to be disappointing. 
Is that disappointing to you, this participation rate? 
Especially for 2010, what we could do to even improve that?
    Dr. Prewitt. Well, the most important thing we can do for 
2010, of course, is to launch the American community survey, 
and you have already expressed your own support of that, I 
believe, because that is a constant updating of the address 
list in the entire country, which means we will never have to 
do this kind of just-in-time address file work again. Let us 
say, we hope we don't have to reproduce the 2000 experience in 
2010 if we have the American community survey in the field.
    However, to your point, it is very hard to judge. You know, 
I am sure some cities got this and took a look at it and said, 
``Look, we have got a pretty clean little city here. There is 
no reason to think there is going to be any problem.'' 
Therefore, they just set it aside. Some probably got it and 
said, ``I don't understand this, we don't have the resources,'' 
and so forth, and set it aside. We have no way of knowing that.
    I think the fact that it is 85 percent of the addresses in 
the country is more important almost than its 40 percent. Our 
number is slightly higher because we define participation 
differently from the GAO. But whatever it is, whether it is 50 
or 40 percent, that it is 85 percent of the addresses suggest 
to us that the jurisdictions who had concern about their counts 
have participated and cooperated. We have talked about 
cooperation of the American public with the census before, 
which is just basic response rate.
    So, it is disappointing, but I think not fatal. If we did 
not have the other two procedures; that is, the block 
canvassing and the update/leave procedures, then we would be 
more concerned. But because we are also walking this ground 
ourselves, we think we can compensate for the absence.
    Mr. Miller. Let me come up with a couple numbers. Even 
though my time is up, I am going to stretch a little bit. The 
GAO had one table that was 16,600 jurisdictions--9,700 to 9,800 
agreed to participate, but only 5,800 sent back annotated 
material. And, that is where the 40 percent, I am assuming, 
comes from; but you are saying that 5,800 represents 85 percent 
of the addresses. So, it is mainly the large cities. The small 
towns are the ones that are failing to participate, I guess.
    Dr. Prewitt. Yes, by definition. Unfortunately, a smaller 
number of jurisdictions participated than the total number of 
addresses.
    Mr. Miller. Right.
    Dr. Prewitt. Mr. Chairman, the people who got the 
materials, and they did not send anything back to us, they may 
have looked at them and said fine. It is not an indication that 
there is a problem with the address list; it is quite the 
opposite. It might be an indication of satisfaction.
    Mr. Miller. You accepted 2.76 million changes. Is that 
approximately the right number? I am having to look at the GAO 
tables.
    Dr. Prewitt. In this table, you will see that the LUCA 
process added in the city-style areas 2.3 million addresses. 
Those are still going through our own review. They haven't been 
fully accepted yet. We don't imagine all of those will survive 
to the final address file.
    Mr. Miller. Oh, OK. Well, then there is still too many that 
are still under appeal and are going to be----
    Dr. Prewitt. Well, they are under review by us and then we 
send them back, our own judgment. Then, they can go into appeal 
if there is a difference of viewpoint.
    Mr. Miller. There is a significant amount of recommended 
changes from local governments. Some are valid and some aren't. 
One question you have is how many of these communities are 
missing. Could it be another 5 million changes and such? Well, 
Mrs. Maloney.
    Mrs. Maloney. OK. Thank you, Mr. Chairman. For the record, 
I want to correct a statement in your opening remarks so that 
we have accurate information for this very important issue. The 
1995 National Academy of Science's report, Moderning the U.S. 
Census, did say that about half of the people missed in the 
census lived in housing units that were missed entirely.
    However, as you know, we both received a letter last year 
from the chairman of that panel, Dr. Charles Schultz, 
correcting that statement because full evaluations were not 
completed when the report was drafted. In fact, about two-
thirds of the people missed in 1990 lived in housing units that 
were counted. Only one-third lived in housing units that were 
missed entirely. This was a vast improvement over 1980 in terms 
of completeness of the address list. I don't have the letter 
with me now, but I would like to submit it following the 
hearing for inclusion with the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.014
    
    Mr. Miller. Without objection.
    Mrs. Maloney. Dr. Prewitt, the chairman in his opening 
statement reiterated his support for post census local review. 
I just want to say that I continue to oppose this bill on this 
issue, along with many State and local officials, the U.S. 
Conference of Mayors, and many editorial boards across the 
country. Dr. Prewitt, 6 months ago, the Bureau was opposed to 
this bill. I assume you still are, but I would like to give you 
the opportunity to state your position.
    Dr. Prewitt. Well, I think for the reasons that the Census 
Bureau felt initially, that the post census local review would 
not be a major addition to our overall integrated census plan, 
we have the same position today that we had then when it was 
being discussed as legislation.
    Mrs. Maloney. Dr. Prewitt, in your testimony you mentioned 
that detailed feedback operation was combined with the final 
determination process. I know that some local governments 
viewed this as a lost opportunity to review the address list. 
Would you elaborate on why this isn't the case and why the 
final procedures are an improvement?
    Dr. Prewitt. Certainly. Could Mr. Waite address that, 
please?
    Mr. Waite. Yes. The original plan involved taking the 
addresses submitted by the community and matching them to what 
we had done with our block canvass. Any mismatches, we were 
going to be sending back to the community and saying, these we 
didn't find. If you would like us to check again, we will. 
Otherwise, we won't. That was the original plan. So the 
communities would have had a chance to look at the full 2 
million addresses that you see--2.3 million addresses on this 
list. They would have had to make a decision then whether to 
ask us to go back to verify them. And if they did, we would 
have gone back and verified them.
    The changed plan, basically, we just skipped that step and 
said we will go back and verify all 2.3 million whether the 
communities wanted us to go back, whether they were concerned 
about those addresses or not. So, instead of just doing those 
addressess that were questioned by the community, we are going 
back and doing the verification for the entire set of addresses 
that were initially submitted by the community but did not 
match to our work on our block canvass. We are matching 
everyone we would have done plus some additional ones that they 
may not have called us to go back on again. Every address is 
being verified. That is being done right now.
    Then after that, we give the communities the list and we 
tell them OK. Of the 2.3 million that we verified, we found 
these, we did not find these. They still have an opportunity at 
that point if they think that we didn't find all of the 
addresses to appeal those addresses that we didn't find.
    Mrs. Maloney. What lessons did the Bureau learn about LUCA 
from the census dress rehearsal, and to what extent were they 
incorporated for 2000?
    Dr. Prewitt. To go back to Mr. Miller's earlier comment, 
the most important thing we learned is we desperately needed a 
seriously reengineered address file strategy. When we were in 
South Carolina--also in Sacramento, but primarily in South 
Carolina--we were operating on the basis of a preengineered--
pre-reengineered address file, and it had serious deficiencies.
    Now, we didn't learn that from the dress rehearsal; it only 
confirmed something we already suspected. But by far, the most 
important thing was that we could not have gone into 2000 with 
the address file that we had if we built it up from 1990 in the 
conventional process. We learned a lot of other things as well 
as a more specific sort, like some of the new kinds of 
development that are occurring in the non-city-style areas.
    Mrs. Maloney. My time is up. Just very briefly, the GAO 
study indicates that the LUCA program has had considerable 
success, but there remains room for improvement. What do you 
think should be done to improve the LUCA program?
    Dr. Prewitt. Well, with respect to the LUCA program for 
census 2000, there are certain things we will learn from this 
one if we do reproduce it for 2010, but I won't go into those 
lessons at this stage. I think the most important thing that we 
have to do in the remainder of the LUCA process for 2000 is we 
have to deliver what we say we are going to deliver when we say 
we are going to deliver it in a way that the local partners 
have an opportunity to then plan ahead and do their work.
    We think we are now on schedule doing that. I didn't bring 
in all of our complicated procedure schedules, but with respect 
to the LUCA stuff, the reconciliation is going to be on 
schedule, and we have a new construction step, and it is very 
important that we maintain schedule on that. We are fairly 
confident, barring unforeseen operational complications, that 
we will be able to sustain our current pledges.
    Mrs. Maloney. My time is up.
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. If I could, 
you know, I was just sitting here thinking how great it is to 
live in a democracy where there are always options. And, I note 
that only about half of the local governments participated in 
the LUCA. What kind of information are we given as to why the 
other half pretty much chose not to participate?
    Dr. Prewitt. Mr. Davis, I am sorry. We don't know. I would 
like to know the answer to that question, and perhaps as GAO 
continues to do its study of the LUCA process, it could inquire 
into that. After the fact, we will try to find that out. In the 
process of actually doing it, we simply send the materials out. 
We send out the criteria----
    [Tape 1, side 2.]
    Dr. Prewitt [continuing]. Do you think it goes back to what 
was suggested in the earlier comments by the chairman and Mrs. 
Maloney, that because it represents such a small number of the 
addresses, it is by definition smaller units. So, part of it is 
their own absence of local resources. We were surprised. For 
example, we sent materials to areas that turned out not to have 
a computer so that we had to reformat it in such a way that 
they could process these materials in a completely 
nonelectronic environment. So, we are talking about a very 
mixed array of resources in our 39,000 jurisdictions.
    Mr. Davis. Haven't we also pretty much determined that it 
would be in their best interest to participate? If they don't 
have resources, in all likelihood, this might help them acquire 
some resources that they don't have or make them eligible for 
resources.
    Dr. Prewitt. I think if we had known before this program 
started what we know now, that the U.S. Congress, when it 
passed the 1994 legislation, might well have considered what we 
will do for those communities that don't have either personnel 
resources, geographic resources, or technical resources. Is 
there any way in which we can make sure that they have those 
resources. We simply did not build that into the design for----
    Mr. Davis. One of the things that always interest me when I 
am driving is that I sometimes pass through towns that say, 
welcome to Davisville, population 52.
    Dr. Prewitt. Right.
    Mr. Davis. And you know, I will look around, and it seems 
as though there are more than 52 people there. Did we get 
responses from those kind of towns?
    Dr. Prewitt. See, I think that is exactly the point, Mr. 
Davis. They would have gotten this packet of material or this 
invitation letter and this promise of packet material and so 
forth. And they said, what does that have to do with us here 
with our 52 people in our 19 housing units? So, some of the 
nonresponse clearly is attributable to the very smallness of 
some of our jurisdictions.
    Mr. Davis. Thank you very much, Mr. Chairman. I have no 
other questions.
    Mr. Miller. Mr. Ford, questions?
    Mr. Ford. I don't really have any. It is always good to see 
the Director, and I sort of appreciate your willingness to come 
before this committee any and every time we invite you, sir. 
And I hope that at some point we let the guy go back and do his 
job. But at this time I would rather yield to Mrs. Maloney. I 
know she might have had some other questions.
    Mrs. Maloney. I will yield to Mr. Ryan.
    Mr. Ford. And if not, I would yield to my friend, Paul 
Ryan, from Wisconsin if he is ready.
    Mrs. Maloney. Thank you.
    Mr. Miller. Mr. Ryan, do you have a question?
    Mr. Ryan. Yes. Let me just ask you a quick question. What 
about the rural areas? My concern is that the participation 
rate with LUCA is a little lower with the rural areas than it 
has been with the cities, 36 percent, I think, versus half. 
What is it that we can do between now and the due date to beef 
up the rural areas? Are you doing something to try and get more 
local governments in the rural areas to participate?
    Dr. Prewitt. Mr. Ryan, the big safety net with respect to 
the rural areas is really in the process in which we are going 
to conduct enumeration, which is kind of update/leave, which is 
to say, we put somebody in a car, on a motorcycle, or in a 
rowboat, or whatever it takes, depending upon the conditions, 
to do every block. The entire country has been divided up into 
blocks, and these will now be assigned to someone. In the rural 
areas, someone will go to every one of those blocks, and they 
already have a map with all of the units listed on it, but they 
have got to redo that map, and they have got to add anything 
that they can find that an earlier process missed, whether it 
was a LUCA process or our own process.
    Because we are our own post office in the rural areas, we 
are not going to mail the things, we are going to deliver them 
ourselves. That process is equivalent to, as I say, a complete 
on-the-ground verification of every housing unit. Now, in 
addition, and I haven't put this on the record before, we allow 
our local offices and our regional offices a lot of flexibility 
with respect to once they are into the process how they want to 
consult with local leaders and say, ``Look, should we cross the 
creek and go down around the woods? Are there some new mobile 
units that didn't use to be there?'' So, there will be a lot of 
that informal back and forth with local jurisdictions during 
the process.
    Mr. Ryan. What about the governments that didn't 
participate, the 50 percent that didn't? Isn't it safe to 
assume that if they did participate, we could get a couple more 
million addresses onto the list? Is there any effort to try and 
get that participation up, to try and go after those who didn't 
send anything back?
    Dr. Prewitt. At this stage, there would be no way we could 
reinvite governments to participate and get their material in 
time to process it. That is why it is much more useful for them 
and for us to be on the ground and working informally with them 
than to try to put them now into some formal process where the 
deadline has passed.
    Mr. Ryan. The process you just described about finding 
people behind the woods and down the valley and improving the 
maps, you are talking about doing that during the enumeration, 
correct?
    Dr. Prewitt. Correct.
    Mr. Ryan. But obviously, it is a lot easier if they have 
good and more accurate maps prior to enumeration so they know 
that there is a valley there, that there are woods there, that 
they are going to the right place. What if that is not 
happening? What if they don't have a good map and maybe they 
don't learn about it?
    Don't you think that post census local review is the best 
catchall, stopgap measure to make sure that: (A) When they are 
enumerating, they don't have an accurate map, which in rural 
areas it looks like it is a higher likelihood of not having 
accurate maps; (B) If they still miss something when they are 
actually enumerating, why don't we get that local county 
executive/county board member to say, ``Hey, look, you missed 
that valley, you missed those woods,'' and give them a 60-day 
window to come back and correct it? What is wrong with that?
    Dr. Prewitt. Mr. Ryan, just before we get to that, the 
process I did not mention yet, or didn't stress, is that in the 
update/leave areas, in the rural areas, we have got people 
walking the roads and going across the creeks and so forth. We 
have a very extensive quality control process. That is, we are 
going to do a high sample of every one of those blocks--doing 
quality control of every enumerator. So, that a block could be 
walked twice; first by the enumerator, and then by a quality 
control person who is then going to say to us at the end of the 
day--``Aha, that person didn't do a very good job.'' Here is 
three units, or two units, that they missed.
    Mr. Ryan. And this quality control is going to be a local 
government official or a----
    Dr. Prewitt. No. He has got to be a Census Bureau person 
who has to be sworn by us--all the confidentiality. In fact, I 
happened to bring our manual for our update/leave areas, which 
is a quite interesting set of instructions, maps, and how you 
do all of this, and so forth. But it makes a major point that 
your work is going to be checked every day. So, it is an extra 
incentive, if you will, for complete coverage. Before we get to 
that, that is before the post census local review question.
    Mr. Ryan. One more thing--I see that I have run out of time 
here. The last time we were here, I asked you if you could send 
us the flight schedule of your media buys for your promotional 
materials. We haven't received that yet. Could we please have 
the flight schedule?
    Dr. Prewitt. Yes. The reason you haven't--we actually 
haven't----
    Mr. Ryan. You may not have it ready yet. I----
    Dr. Prewitt. No. We have a meeting this Friday with the 
Secretary of Commerce. We have to go over it with them first 
before we can release it, it turns out. But we are very close 
to being able to do that. We haven't forgotten that you did 
make that request.
    Mr. Ryan. OK.
    Mr. Ford. Can I just ask one followup question, Mr. 
Chairman? I know my dear friend was asking questions regarding 
how we are going to make sure we can reach all the rural areas, 
and even some of the urban areas, and how we ensure we follow 
with the governments that have not responded. I know the 
question might have been asked before I got here for my 
colleagues.
    Would you, based on what you know about 10 years ago, tell 
me where they were in terms of being prepared to get an 
accurate count. Are we better off based on objective data to 
the extent that you can be objective and not be biased. Are we 
better off today in terms of being prepared to get an accurate 
count than we were 10 years ago with LUCA? I know we had post 
census then, and if I am not mistaken, it was a bipartisan 
effort, Sawyer and Ridge, I guess the Governor now of 
Pennsylvania, pulled together to try to fix some of the 
problems they might have had, but would you say we are better 
off now in terms of being positioned to get an accurate count 
than we were 10 years ago?
    Dr. Prewitt. Congressman Ford, we really do believe we are 
by a wide, wide margin. At this time in the 1990 census, we had 
had no interaction to speak of with the local governments about 
the address file. And, we had not very thick interaction with 
the U.S. Postal Service. So, we have added two major 
components, if you will; that is, the LUCA program and our work 
with the Postal Service, to improve this address file. And I 
think the chart, which we did go over just before you were able 
to come, suggesting that we have gone from a base list just 
with the post office work of 90 million to now with our block 
canvassing and our LUCA program to 96 million, suggests that if 
there are that many addresses to have been added in the last 
year's work, that means that had we not done the work that we 
did, we would have gone into the census 6 million addresses 
short.
    Now, is that 6 million, is it really 6\1/2\, is it really 
5\1/2\? We won't know until we are out in the field. But, it is 
not the difference in six and zero. We added 6 million 
addresses, or there will be somewhere in that number added by 
these processes.
    Mr. Ryan. If my colleague will yield----
    Mr. Ford. Yes, sir.
    Mr. Ryan [continuing]. Just to add a statement, not really 
a question. I think LUCA is a bipartisan thing, but so was post 
census local review in 1990. That was bipartisan, as well. I 
believe that we should use every tool we have to try and 
improve enumeration. It is wonderful that we have added 6 
million addresses. That is great. We can add 6 million more. I 
mean, we already know that LUCA was by best estimates 50 
percent successful, meaning 50 percent returned to us, or 
something around that number. So, we know there are addresses 
we don't have out there. That is why I think on a bipartisan 
basis, post census local review in addition to LUCA is just 
giving us more tools to make it a more perfect enumeration. So 
with that, I yield back.
    Mr. Ford. It was bipartisan, too, not to explode these 
doggone spending caps that are about to explode, but I hear you 
and I agree with you wholeheartedly. I just know that post 
census local review was talked about pretty badly by a lot of 
the local folks, and I just want to applaud the LUCA efforts 
and, hopefully, we can work through whatever differences we 
have here, Mr. Director, in regard to the politics. But you 
keep doing the job you are doing, because it sounds like the 
results are coming back the way we want them to come back.
    Dr. Prewitt. Thank you.
    Mr. Ford. I must say, if there was post census local 
review--we did in 1990 add 84,000, not 6 million. There are not 
6 million addresses out there we haven't found yet. There may 
be some, but there is not anything like 6 million addresses 
that we haven't found.
    Mr. Ryan. And weren't half of those addresses in Detroit 
and Cleveland?
    Dr. Prewitt. Yes, that is true. Nowhere near Wisconsin or 
Tennessee, I might add. We want everyone to be counted.
    Mr. Miller. I have one additional question since the issue 
of post census local review came up during the question and 
answer. And it gets back to the question of trust. That is the 
reason I think we need to get as much local input and support 
as we can, you know. As you know, the GAO report refers to 
mixed results so far. That raises some questions of confidence 
in the whole census. And the whole idea of post census local 
review is to give local communities the idea that they are 
going to have a chance to catch mistakes at the last minute. 
And that is the reason a lot of small towns, the National 
Association of Towns and Townships, League of Cities, and 
organizations supported the idea of post census local review.
    The question I have is what happens after you complete the 
census, and you send out the numbers in March 2001, and a local 
community says, you missed this apartment building, you missed 
this new development? It happened in 1990. You missed these 300 
people? It is too late, the facts are over with? I mean, what 
happens at that stage when the numbers are out? It could have 
been a computer error. I mean, it is not nothing intentional. 
It is just that mistakes are going to be made. What recourse is 
there at that time, or is it just too late for that community?
    Dr. Prewitt. Mr. Chairman, the Census Bureau, during the 
discussion of the post census local review, reflected hard on 
that question, and recognized exactly the merit of what you are 
saying, that when the counts are finished and the city looks at 
it, it can say something went wrong. And it wasn't an address 
here or a housing unit there--it went wrong at a magnitude that 
we shouldn't have to live with. And the Census Bureau has 
designed something it calls post census count resolution, which 
would allow 39,000 jurisdictions the opportunity after the 
counts are finished to say that something went wrong in our 
community.
    We have designed that program. We believe in it. We believe 
it is exactly the kind of insurance policy that you are talking 
about. Should there be a magnitude of, you know, an apartment 
building simply got missed, or what have you, that post census 
count resolution would be worked out with State demographers, 
which know a lot about their State.
    All I can say is that we did design that. We discussed it 
informally with staff members on both sides of the aisle. We 
continue to believe in it. It is not currently part of our 
design, because we received no responsiveness from Congress 
yet, but we would be delighted to come back and----
    Mr. Miller. My understanding of that is that it did not 
involve the local official.
    Dr. Prewitt. Oh, it does.
    Mr. Miller. It was the State demographer that was in 
charge.
    Dr. Prewitt. But the State demographers are working with 
the jurisdictions in each of their States.
    Mr. Miller. But, it is after the fact though. It should be 
done later in the year, but in March 2001, they find a missing 
500 people--I mean, in a State that is very concerned about it, 
Wisconsin--you know, big States like New York, 500 people will 
not make a difference but----
    Dr. Prewitt. It is not----
    Mr. Miller. It is too late to do anything in March--I mean, 
once you know what the mistake is.
    Dr. Prewitt. No. The post census count resolution process 
includes a procedure by which we would then go back and correct 
the numbers for the intercessional estimate program for the 
next decade. So, it is not too late. It was a very serious 
recommendation.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Well, we have been called for a vote. I will 
be very brief. I just would like to thank the panelists for 
their testimony. It appears that LUCA has gotten off to a very 
promising start. This was a program that was created in a 
bipartisan way and I hope in a bipartisan way we can continue 
to support the Census Bureau and the LUCA program as they go 
forward in their work to get an accurate count. Thank you very 
much, and we will see you in a little bit.
    Mr. Miller. We have two votes, and so we are going to have 
to stay over there for 15 minutes. We will take a recess for 
approximately 20 minutes. And, as soon as I come back, we will 
begin. And thank you all for being here. You all don't need to 
remain for the rest of it.
    Dr. Prewitt. Thank you very much.
    [Recess.]
    Mr. Miller. Mrs. Maloney is on her way back from the vote, 
but it is all right for us to proceed. So Mr. Mihm, first of 
all, if you would stand and raise your right hand?
    [Witness sworn.]
    Mr. Miller. Thank you. Please be seated. And welcome. I 
appreciate you being here with us today. With that, I would 
like to ask for your opening statement.

 STATEMENT OF J. CHRISTOPHER MIHM, ASSOCIATE DIRECTOR, FEDERAL 
MANAGEMENT AND WORKFORCE ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Mihm. Well, thank you, Mr. Chairman. It is a pleasure 
and an honor to appear before you today. In the interest of 
brevity, I will just take a few moments to hit the highlights 
of what is in my prepared statement.
    As you know, my statement focuses on two initial measures 
of how well LUCA is working. First, the Bureau's operational 
experiences with the first phase of LUCA, known as LUCA 1998; 
and second, local government's views of the adequacy of local 
resources to review the census address list and maps, and the 
quality of the Bureau's materials and assistance. As you 
mentioned in your opening statement, Mr. Chairman, LUCA 1998 
was targeted at jurisdictions with city-style addresses, 
containing about 80 percent of the Nation's housing units, or 
about 96 million households.
    On my first point, the Bureau's experiences with 
implementing LUCA: The Bureau invited about 16,700 
jurisdictions with city-style addresses to participate in LUCA 
1998. However, most did not provide the Bureau with any input, 
as shown in table 1 of my written statement. According to 
Bureau data, about 40 percent of the eligible governments 
signed a confidentiality agreement with the Bureau, received 
materials for review, and then ultimately provided material 
back to the Census Bureau.
    And that is really the key difference between our number 
and the Census Bureau's number. The Census Bureau is reporting 
the number of local governments that signed the confidentiality 
agreement and ultimately were sent material from the Bureau. We 
are reporting a subset of that; that is, the local governments 
that ultimately returned some input back to the Census Bureau.
    These 40 percent of the local governments suggested almost 
7\3/4\ million changes to the census address list, as shown in 
my written statement. Of these suggested changes, about 5.4 
million were additions to the census address list, and the 
Bureau has found about 2\3/4\ million of these suggested 
additions to have been valid. So those are already locked into 
the census. However, the Bureau has not, at this point, 
accepted about 2.2 million suggested additions. These are going 
to be rechecked during the field verification reconciliation 
operation that is ongoing.
    On the second topic I will discuss this morning, dealing 
with our survey of LUCA participants on their experiences, we 
looked at five things. First, the availability of local 
resources to review census materials. Second, the adequacy of 
LUCA timeframes from the perspective of local governments. 
Third, user friendliness of census address list and maps. 
Fourth, the adequacy of Bureau training and other support. And 
fifth, and finally, the overall completeness and accuracy of 
census address list and maps.
    My written statement provides details on our survey 
methodology and the results. Let me just touch on some of the 
major findings. First, LUCA appears to have stretched the 
resources of many local governments. About 44 percent of the 
local governments said that the human resources in their 
jurisdictions to do LUCA were not at all sufficient or were 
only sufficient to a small extent.
    In contrast, only about 23 percent of local governments 
reported that their human resources were sufficient to a great 
or very great extent. Clearly, local governments were having 
problems with the extent to which they had people to do LUCA.
    In regards to having the technology needed to review 
addresses, just over one-third of the local governments said 
that to a great or very great extent their technological 
resources were sufficient, while one-quarter reported that 
their resources were sufficient to a small or no extent at all.
    Second, about 38 percent of the local governments reported 
that the 3-months the Bureau gave them to review addresses was 
adequate to a very great or great extent, while about one-
quarter said it was adequate to a small or no extent at all.
    Third, many local governments had positive views of the 
user-friendliness of census address lists and maps. We should 
note that this is an important development, because it appears 
to be quite a change from the experience during the dress 
rehearsal. Roughly half of the local government said that the 
Bureau's address lists were easy to work with to a great or 
very great extent, and about half reported the same for census 
maps.
    Fourth, in regards to training and other Bureau support, 
about 28 percent of local governments were to a great or very 
great extent satisfied with LUCA training, while about 13 
percent were satisfied to a small extent or none at all. The 
Bureau also made available a variety of resources that local 
governments could turn to for help in completing their reviews. 
It appears that the reference manuals were used more than any 
other source of information, and about 45 percent of the 
localities found the manuals to be of great use.
    Overall--and this is the finding that Director Prewitt 
referred to--overall, about half of the localities were 
satisfied to a great or very great extent with the Bureau's 
assistance. Half of the local governments reported similar 
levels of satisfaction with the timeliness of the Bureau's 
response to questions.
    Fifth, local governments gave the quality of the Bureau's 
address list and maps mixed reviews. For example, about 43 
percent of the governments said that they had few problems with 
the accuracy and the completeness of the address list, while 
about 18 percent reported encountering problems to a great or 
very great extent.
    In regards to the completeness and the accuracy of the 
Bureau maps, about half of the local governments said that they 
had problems to a small extent or not at all, compared to 16 
percent that said they had problems to a very great extent.
    Now, I realize that this has been a lot of information; 
there is a lot of data as a result of our survey. But in 
summary, Mr. Chairman, LUCA 1998 has had mixed results. On the 
one hand, many local governments said they were satisfied with 
specific aspects of the materials and the assistance that the 
Bureau provided to them. On the other hand, other components, 
such as training, received much less favorable reviews. 
Moreover, LUCA may have stretched the resources of local 
governments and the workload was greater than what most local 
governments had expected.
    Most important, as you mentioned in your opening statement, 
the real impact that LUCA had on the overall completeness and 
accuracy of the census address list is not known at this point 
and will not be known until evaluations are completed after the 
census--of the accuracy of the census address list. This 
concludes my statement. I would be pleased to respond to any 
questions that you may have, sir.
    [The prepared statement of Mr. Mihm follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.015
    
    [GRAPHIC] [TIFF OMITTED] T1820.016
    
    [GRAPHIC] [TIFF OMITTED] T1820.017
    
    [GRAPHIC] [TIFF OMITTED] T1820.018
    
    [GRAPHIC] [TIFF OMITTED] T1820.019
    
    [GRAPHIC] [TIFF OMITTED] T1820.020
    
    [GRAPHIC] [TIFF OMITTED] T1820.021
    
    [GRAPHIC] [TIFF OMITTED] T1820.022
    
    [GRAPHIC] [TIFF OMITTED] T1820.023
    
    [GRAPHIC] [TIFF OMITTED] T1820.024
    
    [GRAPHIC] [TIFF OMITTED] T1820.025
    
    [GRAPHIC] [TIFF OMITTED] T1820.026
    
    [GRAPHIC] [TIFF OMITTED] T1820.027
    
    [GRAPHIC] [TIFF OMITTED] T1820.028
    
    [GRAPHIC] [TIFF OMITTED] T1820.029
    
    [GRAPHIC] [TIFF OMITTED] T1820.030
    
    [GRAPHIC] [TIFF OMITTED] T1820.031
    
    [GRAPHIC] [TIFF OMITTED] T1820.032
    
    Mr. Miller. Thank you. I appreciate the work that you and 
the GAO has been doing on different areas of the Bureau, 
because the GAO provides an independent evaluation on LUCA. And 
as everyone well knows, there is a certain amount of partisan 
interest in this issue. But we need to have the objectivity 
that the GAO provides, and we appreciate the work that you have 
done and other reports by the GAO.
    Let me try and get a better understanding. Now, in your 
summary of the 16,675 eligible jurisdictions, we ended up with 
40 percent that returned materials.
    Mr. Mihm. Yes, sir.
    Mr. Miller. The 40 percent is those that actually returned. 
A couple questions. Dr. Prewitt talked about 85 percent of 
addresses. Does that 40 percent that responded represent 85 
percent of the addresses or do we know?
    Mr. Mihm. The jurisdictions covered are about 85 percent of 
the addresses. What is not known is the extent to which the 
local governments reviewed those addresses. In other words, we 
know that some local governments only did a partial review. 
Some local governments just returned unannotated material to 
the census Bureau. Some of those probably looked at it and 
concluded everything was fine. Some of those may have gone 
ahead and looked at it and concluded we don't have time to 
examine this in detail.
    The other thing that is important to keep in mind is that 
we are still dealing with a large number of jurisdictions that 
are not reporting information, and some of them have been quite 
large.
    In fact, about over 2,000 of the jurisdictions that had 
populations greater than 10,000 in 1990 were not participants 
in either phase, because they chose not to participate in 
either phase of LUCA this time around. So, we are dealing still 
with some very large localities that did not participate in 
LUCA.
    Mr. Miller. Did you get any feel--and we didn't have time 
to ask some of the questions of the first panel, about why 
communities did not participate? I could maybe understand a 
community of, you know, 50 people, and it doesn't have a 
computer. But, do you have any sense of why the 60 percent did 
not participate?
    Mr. Mihm. Yes, we do. We have done studies going back over 
a decade or more looking at local government participation in 
census activities. We did a survey of local governments of 
nonparticipants in pre-census local review from the 1990 census 
and found that a major reason that they didn't participate was 
just a lack of resources and the lack of time on their part.
    During the dress rehearsal, we spoke pretty extensively 
with nonparticipants in the South Carolina area and, again, 
found that a major reason for a lack of participation was that 
local governments just simply did not have the resources, 
either the technological or the people, to be able to devote to 
reviewing addresses.
    Mr. Miller. You implicated that they recognized the 
importance of the census. I mean, a lot of communities look at 
it as an issue of money, both flowing from the State and 
Federal Government. You would think there would be a motivation 
to participate. Is it that these communities don't rate high 
enough on the scale of factors, or choices, or----
    Mr. Mihm. Obviously, local communities have to set their 
own priorities in terms of what they think is important and 
where they devote their resources, but one of the things that 
we have seen, and as we are looking toward the 2010 census, 
there needs to be more of an effort, thinking very early in the 
decade, of how do we work to build capacities within local 
governments to be able to review address lists and to have 
substantive input.
    In some cases, the local governments were clearly able to 
do that as suggested the 7\3/4\ million suggested changes. In 
other cases, they clearly do not have the capacities, and it is 
something that needs to be started earlier in the decade rather 
than waiting toward the end.
    Mr. Miller. The 5.38 million suggested additions, this 
comes on from 40 percent of the jurisdictions?
    Mr. Mihm. Yes, sir.
    Mr. Miller. That is a sample, obviously, not a random 
sample, of the 40 percent. We don't know how large a number of 
missed addresses would be out there, do we?
    Mr. Mihm. That is right. We don't know, of those that did 
not participate, even though as I mentioned a moment ago, that 
prior evidence suggests that a lot of the nonparticipation was 
because of a lack of resources, we still don't know how many 
didn't participate because they had confidence in the Census 
Bureau. We don't know how many got the census material, viewed 
it as OK, and did not send it back. We don't know how many 
really did partial reviews as opposed to complete reviews.
    That is why a lot of the questions about the success of 
LUCA--certainly, operationally, in terms of the support that 
the Bureau provided, local governments are generally pleased 
with LUCA. But the real impact is what difference does it make 
with the address list is something that has to wait until after 
the census when evaluations are completed.
    Mr. Miller. The 1.8 million admissions that were not 
submitted in time, that is a rather significant amount of 
submissions from the local community. But the 3-months, they 
said, was adequate time, but they still didn't meet the 3-month 
deadline. They miss the deadline and, yet most people felt they 
had enough time. I am confused by that one.
    Mr. Mihm. There are a couple things going on there. One is 
that local governments didn't have enough time, and to the 
Bureau's credit, we believe they didn't cut anyone off. They 
weren't overly dogmatic in saying, ``Well, you have had your 3 
months. We don't care if you have changes.''
    In addition, as Dr. Prewitt and his colleagues mentioned, 
there were some delays in the Bureau's efforts to get these 
address lists out to local governments, which meant some of the 
input from the local governments came in after block 
canvassing, after the Bureau was already in the field doing its 
initial 100 percent verification of the address list. And so, 
those addresses had to be picked up later.
    The important thing is that for these entire 1.8 million 
addresses, the Bureau has committed to doing another field 
verification to make sure that the housing units are there. And 
as Director Prewitt mentioned, the Bureau also is sending out 
questionnaires to these addresses. The addresses are in the 
data base so they will be getting questionnaires in the mail 
for census day.
    Mr. Miller. Your survey of the 150 jurisdictions did not 
count the 60 percent nonresponding, right; 40 percent of the 
jurisdictions responded----
    Mr. Mihm. Yes, sir.
    Mr. Miller. So, the sample is based on that 40 percent?
    Mr. Mihm. Basically, yes. It is based on those that were 
participating in LUCA as of January 1999. That is, they had 
signed confidentiality agreements and had been receiving 
materials, and had not indicated that they were going to drop 
out. We have not surveyed nonrespondents or nonparticipants.
    Mr. Miller. As far as knowing how many households or the 
percent of population that local communities had a chance to 
verify, we don't know that?
    Mr. Mihm. No, sir.
    Mr. Miller. OK. You know, the Bureau has done their 100 
percent check.
    Mr. Mihm. Right.
    Mr. MIller. But as far as the opportunity to verify, the 
big cities have pretty much participated?
    Mr. Mihm. As Director Prewitt mentioned, nonrespondents had 
a tendency to be the smaller jurisdictions. But the Bureau data 
that we have seen also suggests that there are a number of 
large cities that did not participate.
    For example, over 2,300 jurisdictions that in 1990 had 
populations of more than 10,000 people did not participate in 
either phase of LUCA; that is, the 1998 or the 1999 version. 
Seven of those had populations of over a million. And so you 
are dealing with some large jurisdictions that for whatever 
reason did not participate.
    Mr. Miller. Do we have any feeling as far as where the 
majority of these are?
    Mr. Mihm. Yes, sir.
    Mr. Miller. Where was the biggest problem in 1990? Is it 
the larger communities, the cities, or the smaller cities?
    Mr. Mihm. I know that data is available, I just don't 
recall it offhand, Mr. Chairman. And so with your permission, I 
would like to be able to research that and submit that for the 
record rather than give you something I would have to correct.
    Mr. Miller. OK. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. In your July 1998 
testimony, you stated that the Census Bureau's revised approach 
to developing the 2000 address list was ``not without risk''. 
At that time you noted that the revised approach was not used 
during the dress rehearsal. Given the results of your survey 
and the preparation for this testimony, are you willing to say 
that the risks posed by the changes introduced in 1997 have 
been substantially outweighed by the improvements to the 
address list produced by block canvassing?
    Mr. Mihm. I can't go that far, ma'am, in that we still 
don't know the accuracy of the address list, and that is 
something nobody will know until after the census when 
evaluations have been done.
    Certainly, I can say that based on the discussions that we 
had with local governments during the dress rehearsal, and then 
the survey responses we got from participants in LUCA 1998, I 
think the Bureau should take some credit that a number of the 
concerns of local governments during dress rehearsal were 
raising about Bureau assistance and quality or useability of 
maps and address lists seem to have been substantially resolved 
by the time they did LUCA 1998. So, to that extent, the Bureau 
should take some pride.
    Mrs. Maloney. So, in essence, you are saying that you don't 
have sufficient information in your report to conclude that 
block canvassing has substantially contributed to the accuracy 
of the address list?
    Mr. Mihm. One of the problems is that none of us do, and 
that includes the Census Bureau. I mean, the evaluations that 
have to be done after the census will tell us the accuracy of 
the address list. Those have to wait until evaluations are done 
by the Census Bureau after the census.
    Mrs. Maloney. I must say, when I look at the charts 
provided in your testimony, my overall impression is that the 
local governments were generally satisfied with LUCA 1998. Is 
that your impression?
    Mr. Mihm. I think the key charts, figure 6, which is on 
page 11, clearly shows that high percentages of local 
governments were reporting to a great or very great extent that 
they were satisfied with the extent of the assistance, the 
timeliness of the assistance, and the responses provided by the 
Census Bureau.
    On the other hand, and this isn't surprising, this is why 
the Census Bureau did LUCA, a number of local governments also 
are reporting that they had questions and concerns about the 
accuracy of the address list and the maps. And again, that is 
exactly why the Bureau did LUCA. And so I would agree with 
Director Prewitt that the data in figure 6 is something that 
the Bureau should take some pride in.
    Mrs. Maloney. Well, based on your experience, and I know 
you have conducted many of these types of surveys, would 
numbers like the ones you report indicate that the program is 
basically on track?
    Mr. Mihm. Well, we looked at two operational types of 
issues: number of changes that were suggested and then kind of 
participant or measures. In terms of these being proxy 
measures, or how the process worked, then I think things are 
very favorable.
    I know I keep answering your original question in different 
ways, but in terms of the ultimate quality of LUCA and the 
contribution that LUCA makes to the improved address list, 
unfortunately, all of us have to wait on that until after the 
census, because then we will know what each operation 
contributed in terms of the improvement and the quality of the 
address list.
    Mrs. Maloney. Some critics of the Census Bureau's address 
list have suggested that the people walking the streets 
checking addresses may not be doing a very good job. In your 
experience working with those individuals, how would you rate 
the quality of effort put in census takers in developing and 
checking the address list?
    Mr. Mihm. The short answer is very high. We have been 
onsite, or went onsite, to a number of places with address 
listers in Paterson, NJ, and in Long Island, and elsewhere and 
we were across the board impressed with the quality of the 
address listers. An additional point to make is that it 
underscored for us how incredibly difficult it is to get an 
accurate address list. And we were continually impressed when 
census takers would know that they needed to go up right next 
to the door to check to see if there are two doorbells there. 
That tells them that there are two housing units. That wouldn't 
be evident if they were just walking the streets.
    So, a complete and accurate address list is an inherently 
difficult activity, and that was clearly underscored to us with 
our visits with census takers.
    Mrs. Maloney. The Bureau has reported that 52 percent of 
the eligible local governments participated in the LUCA 
program. You have testified to a somewhat smaller number, about 
40 percent of eligible jurisdictions, provided input to the 
Bureau. Can you explain this discrepancy?
    Mr. Mihm. Yes. It is just a difference in focus. The Bureau 
focuses on participation. We focus on input. Participation is 
local governments that signed a confidentiality agreement and 
then subsequently got material from the Census Bureau. We 
define input as local governments that signed a confidentiality 
agreement, got material from the Census Bureau, and then sent 
something back to the Census Bureau, either annotated 
corrections or even un-annotated corrections. And so input is a 
subset of participation.
    What we are all struggling with is how do we get--and this 
is what we touched on in the conversation with the chairman--
how do we get a genuine feel for what the real level of 
participation was? Or rather how do we know how substantive the 
reviews were with the address list. Our focus on input just 
takes a bit of a finer cut than the Census Bureau's focus on 
participation does.
    Mrs. Maloney. Well, my time is up, so thank you very much.
    Mr. Miller. Mr. Mihm, thank you very much. I know you are 
going to be on top of this issue for the next couple of years, 
living and breathing the census, and we appreciate the ability 
to have the independent advice that we get from your agency. 
So, thank you very much for being here today.
    Mr. Mihm. Thank you, Mr. Chairman.
    Mr. Miller. We will proceed with the next panel. We have 
three gentlemen with us today. If you will remain standing, the 
procedure under the Government Reform Committee is all 
witnesses get sworn in for hearings. So, if you would raise 
your right hands and repeat?
    [Witnesses sworn.]
    Mr. Miller. Let the record show that all answered in the 
affirmative. We welcome all three of you. You have all traveled 
some considerable distance to be here today. We appreciate it. 
It is very important to hear from people on the front lines. 
The two panels before you, they are the ones conducting the 
census. But you all are the ones that are, as I say, at the 
front line participating in this. And so I think it is 
important to hear from both the next two panels.
    So with that, we would like to have your opening 
statements. And let's see, Mr. Maguire, if you would like to go 
first.

STATEMENTS OF JACK MAGUIRE, PLANNING/GIS MANAGER FOR THE COUNTY 
  OF LEXINGTON, SC; GEORGE PETTIT, ASSISTANT TOWN MANAGER OF 
  GILBERT, AZ; AND DON RYCHNOWSKI, EXECUTIVE DIRECTOR OF THE 
                 SOUTHERN TIER WEST RP&D BOARD

    Mr. Maguire. Thank you, Mr. Chairman. I am the planning/GIS 
director for Lexington County, SC. Prior to moving there in 
January, assuming that job, I worked for the State of South 
Carolina and was extremely active in the census dress 
rehearsal, working on five counties during that time.
    I would like to ask that my written testimony be entered 
into the record in its entirety, and I would like to summarize 
and make a few comments. Regarding LUCA, there are significant 
improvements over the dress rehearsal, and I commend the Bureau 
for the very important changes that they made. At the same 
time, the rhetoric about LUCA and their persuasiveness of the 
adequacy of the address list vastly outpaces the performance.
    The first thing that I want to say is that I don't think 
the Census Bureau has assigned an address in this Nation yet. 
Local governments do. If you build a house, if you install a 
mobile home, we assign the address. I personally do not think 
that the Census Bureau should be in the business of telling 
local governments what addresses it will accept in our 
jurisdiction. I think it is out of bounds when it does that.
    Second, regarding the field experience, it may be that in 
cities the Bureau does an excellent job determining how many 
housing units are in a block. In rural areas, I know from 
asking the people who have done the work, that it is incredibly 
spotty. They are concerned about their safety and they will not 
go off the road to see if this is a driveway or that is a 
driveway, and if there are 2 mobile homes down there or if 
there are there 22.
    In our LUCA 1999 experience, one of the most significant 
areas of missing addresses was in a place called Timberlake on 
Lake Murray. These are not areas to be concerned about safety. 
The smallest house that they missed in Timberlake has over 
2,000 square feet and sells for over $300,000, which in South 
Carolina is a lot of money to pay for a house. The largest 
house they missed exceeds 10,000 square feet, and I have no 
idea how much money that house would cost. This was after they 
completed their field work. They still missed 157 houses in 
that neighborhood. We verified it.
    Third, the Bureau made one major mistake that crippled 
local governments in working through LUCA. In the dress 
rehearsal, the address ranges were placed on the TIGER maps. 
That meant the person in the local municipality who had no GIS 
experience, no computerization in mapping experience, could 
analyze the maps and see if Aunt Sally lives here and Uncle 
George lives there. The Bureau chose to remove those address 
ranges and people have been confused in local governments 
unless they have a GIS system similar to ours. If we are to be 
partners in LUCA, we need that data.
    As to suggestions to improve LUCA, I think the first one is 
the Bureau needs to learn somehow, someway, that local 
governments assign road names, local governments assign 
addresses. The Bureau doesn't do that. If we tell them this is 
the name of a road and these are the addresses on it, they need 
to accept our authority. The post office accepts our authority. 
E-911 uses our data. Why can't the Bureau fall in line with 
everyone else in the Nation?
    Next, one of the major problems in the dress rehearsal that 
the Bureau had difficulty with was ZIP codes. They were using 
commercially contrived ZIP code maps. These maps gave improper 
addressing to forms that went out. This meant whole ZIP codes 
were missed. We offered at that time to give the Bureau proper 
ZIP code maps that were accurate and tested by the post office. 
Since then they have moved to a ZIP code tabulation area which 
is a very unspecific map of ZIP codes. In other words, this is 
``sort of' where it is.
    In Lexington County, we have offered to give them a very 
precise map of exactly where the ZIP codes are, because we work 
out the ZIP code boundaries with the post office. We assign the 
addresses; they do the ZIP codes. We work with them every day. 
The Bureau has refused to accept our maps. The Bureau said, if 
you send them, we will let you send them, but we will not use 
them. We don't want that level of specificity. As a person 
involved in planning, I simply can urge someone somewhere to 
tell the Bureau to please use the most specific data available. 
We need this information for planning in the United States in 
the years to come.
    The third thing, please share the address list through the 
entire process. We want to see the address list that is used in 
the actual census. We have worked hard to do this. Many of us 
who are doing the list are doing a great deal of work after 
hours and on weekends. It is worth doing that kind of job. But 
if I am going to work that hard and that many hours, I want to 
see the results. I don't think that is too much to ask. We 
asked for it after the dress rehearsal, and we were told we 
could not have it.
    If you want local participation rates to go up, please 
update the annexation maps. The Census Bureau apparently 
believes that some maps should be updated for annexations and 
some should just get pushed aside. During the dress rehearsal I 
was asked if the town of Irmo had annexed anything in the last 
7 years. Irmo had been annexing every year. They resubmitted 
correct annexation maps. Now, the town of Irmo has gotten their 
latest maps, and they still have not been updated since 1990. 
It is no wonder the dress rehearsal shows the town of Irmo 
losing population in the dress rehearsal. If you don't update 
the boundaries, the population is going down, and that will 
hurt the cities for 10 years of funding.
    The other suggestion I would have is please update TIGER. 
TIGER has got to be strategically changed in the decade to 
come.
    [Tape 2, side 1.]
    Mr. Maquire. Local government maps are used 24 hours a day, 
7 days a week. Our maps have to be good. Please include us when 
changes are made.
    I sound frustrated because I am. At the same time, we would 
not have gotten here without the help of some of the people at 
the Bureau, the Charlotte Regional office, in particular. We 
would not have had the opportunities without the State of South 
Carolina Office of Research that allowed us to do five 
different counties in the dress rehearsal.
    I am particularly appreciative to be in the one county that 
has given the Census Bureau the worst experience. It isn't that 
I am glad that they are having a bad experience with Lexington 
County. I am just glad that if the experience was going to be 
that bad that I could be there to help fix it, because we are 
determined to count everybody at least once. Thank you.
    [The prepared statement of Mr. Maguire follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.033
    
    [GRAPHIC] [TIFF OMITTED] T1820.034
    
    [GRAPHIC] [TIFF OMITTED] T1820.035
    
    [GRAPHIC] [TIFF OMITTED] T1820.036
    
    [GRAPHIC] [TIFF OMITTED] T1820.037
    
    [GRAPHIC] [TIFF OMITTED] T1820.038
    
    [GRAPHIC] [TIFF OMITTED] T1820.039
    
    Mr. Miller. Mr. Maguire, thank you very much. Let me ask 
you before we go to Mr. Pettit. For the record, state where you 
are from and just give a 1-minute description of what your 
position is. You are from Lexington County, I know.
    Mr. Maguire. In Lexington County, I am the planning/GIS 
manager. We have a planning and development division. My team 
does all addressing, all maps, all subdivisions, and a lot of 
special projects.
    Mr. Miller. What is the population?
    Mr. Maguire. 200,000 and growing rapidly. We are one of the 
fastest growing counties in the Nation.
    Mr. Miller. You were in the dress rehearsal?
    Mr. Maguire. Yes.
    Mr. Miller. Thank you very much. Mr. Pettit, again, if you 
would just describe a little bit about what your position is 
and the area that you are most familiar with so that we have an 
idea.
    Mr. Pettit. Certainly.
    Mr. Miller. Thank you.
    Mr. Pettit. Mr. Chairman, members of the committee, my name 
is George Pettit. I have been the assistant town manger for the 
town of Gilbert, AZ since July 1985. When I arrived in Gilbert, 
AZ, we just completed a special census under contract with the 
Census Bureau that established our population as 12,102 souls. 
As I sit here today and we try to prepare for census 2000, we 
anticipate that number will be 105,000.
    Our concern is that the base data used by the Census Bureau 
was 29,872 people only 9 years ago. We have updated that 
information through a special contract with the Census Bureau 
to get to the 59,338 that were certified in 1995. Our dilemma 
is that the special census information was not even used to 
update the base information used by the Census Bureau. Again, 
we slid back to 1990 and our population of 29,872.
    In addition to my position with the town of Gilbert, I also 
have the privilege of serving as chairman of the MAG, Maricopa 
Association of Governments, regional population technical 
advisory committee. This is a working group of the association 
of governments which represents 24 local governments, the 
county, two Indian tribes, and the State Department of 
Transportation in a planning effort on regional issues. MAG 
POPTAC was designated as the contact point for census 2000. We 
have invited, and we continue to include, local office 
personnel in all of our monthly meetings and try to keep 
updated on census 2000 as best as we can.
    I think, as I tried to allude to earlier, Maricopa County 
and all of the communities within Maricopa County are really 
sensitive to the issue of conducting an accurate census count. 
There is a reason we contract every 5 years with the Census 
Bureau to try to figure out what is happening with our 
population. The rate of change is phenomenal. I can appreciate 
the change that you are going through. We have been 
experiencing it for 15 years and it gets a little old. When I 
started this job, I was a handsome young man.
    It was with a sense of relief and a great deal of 
anticipation that we actually heard early presentations to the 
City Manager's Association in 1997 that LUCA 1997--or LUCA 1998 
was coming forward, and it represented an opportunity for a 
partnership, an information partnership, between the local 
governments that assign addresses, create all of this 
information, understand our community and the Census Bureau. 
The unique thing over the 1990 census was that it gave us an 
opportunity to participate in the process before. We viewed it 
as a major improvement over the previous efforts of post census 
review in trying to track down all the citizens.
    Further, from Gilbert's perspective in LUCA, as we 
understood the maps, we thought we had an increased benefit 
because we were totally within the mailback/mailout area. So, 
we felt that if we could dedicate resources to identify the 
addresses, to get the geography correct, we had a pretty good 
chance of getting a complete count.
    You can imagine our surprise, I think, when after we had 
hired people in September 1997, and we were waiting for the 
information to show up, it started to show up piecemeal in the 
fall of 1998. But we found out that, basically, 25 percent of 
the housing units that we thought should be present in the 
community in 1997 were missing from the LUCA 1998 file; 10,000 
units is a fairly significant number of people for Gilbert, 
that is about a 30,000 population.
    Several streets were omitted from the TIGER file, addresses 
were missing and, in fact, the addresses that were missing were 
not only those that were new construction. They were addresses 
that should have been in the 1990 base file for apartment 
complexes and single family dwellings built and finished in 
1998 and 1989. It was our understanding it was supposed to be 
on the file; they were not.
    We reviewed and reported the LUCA 1998 geographic data 
discrepancies to the Denver regional office, kept our staff on 
board and anticipated a response as we were promised. In the 
summer of 1999, we still hadn't received that information back. 
We did receive notice in May 1999 that the detailed feedback 
option that we had so been looking forward to and hoping to use 
as a test to find out how our information was being received by 
the Census Bureau, that the process was being consolidated into 
a later process that will hopefully come to fruition in the 
summer of 1999.
    Our latest information from a meeting 2 weeks ago of the 
MAG POPTAC is that we might be getting this information in 
November or December. We still do not have a full understanding 
of what information the Census Bureau is using as they hire 
people and send them out into the field to do field checks. We 
have not had an opportunity to look at that. Their own 
personnel don't even know what they are really looking for, and 
they are just starting the hiring process now.
    It is a frustrating point for us as well, because we have 
also been verbally advised that we are going to receive a 
letter about new construction. New construction is obviously 
important since we are finishing 275 single family homes a 
month in Gilbert. Not only are the new construction programs 
only designed to deal with the period of January through March 
2000, there still is an unanswered question of what is going to 
happen with all those housing units that have been finished in 
the last calendar year, because the information we submitted 
was based upon December 1998 addresses.
    The GAO report that I had an opportunity to look at earlier 
today indicates that there is an obligation to complete this 
task for LUCA by January 14, 2000. If you do the math and back 
off a 30-day appeal process, do something about Thanksgiving, 
about Christmas, consider what local governments may or may not 
have to deal with when it comes to the millennium issues, Y2K, 
it is going to be a challenging time for us, and we have not 
yet really had the Census Bureau take advantage of the 
resources that we have invested in in terms of additional time 
and personnel.
    The need for a good count is extremely important to us. 
Thirty-six percent of our general fund revenue comes from the 
per capita counts; that is, police, fire, parks and recreation. 
That is $1,000 a head to the town of Gilbert. Every person 
counts in Gilbert to the tune of $1,000 a head in just the 
State share of revenue alone, let alone the issues of equal 
representation, distribution of Federal revenues and 
demographic statistics that business and parks use.
    Just this past week, I received a phone call from someone 
asking what kind of business opportunities there were in 
Gilbert, AZ with this population of 30,000. He was disappointed 
to find out that we were 105,000.
    The town is committed, Maricopa County is committed, all 
the communities in the region are committed to a full count and 
to try to work this information partnership that was presented 
back in 1997.
    Unfortunately, our investment has yet to be realized and we 
have yet to realize much feedback from the Census Bureau about 
our efforts in working with them. It was shared 2 months ago, 
that as they went out and did a field check in the update/leave 
area, that they had rented four-wheel drive vehicles and went 
out and drove up riverbottom to find a residence that was 
reported in 1990 that doesn't exist anymore. The county knew 
this information from aerial photography. The answer could have 
been easily provided if we worked this information partnership 
as it was presented early back in 1997.
    Again, a call to local officials can resolve a lot of these 
discrepancies. We had hoped that this information partnership 
would minimize the training problems that the Census Bureau was 
going to experience as they worked in a high growth area like 
the Phoenix Metropolitan area. To date, those offers have not 
been accepted, and we are 184 days from completing that task.
    I recognize that it is somewhat controversial, but without 
outstanding significant improvement, and meeting the promised 
deadlines, and working with us as true information partners, 
there needs to be an immediate assurance and an adequate 
opportunity for us to be able to review post-census information 
and those counts prior to certification in December. Thank you 
for this opportunity.
    [The prepared statement of Mr. Pettit follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.040
    
    [GRAPHIC] [TIFF OMITTED] T1820.041
    
    [GRAPHIC] [TIFF OMITTED] T1820.042
    
    [GRAPHIC] [TIFF OMITTED] T1820.043
    
    [GRAPHIC] [TIFF OMITTED] T1820.044
    
    [GRAPHIC] [TIFF OMITTED] T1820.045
    
    [GRAPHIC] [TIFF OMITTED] T1820.046
    
    Mr. Miller. Thank you, Mr. Pettit. And now, we would have 
Mr. Rychnowski. Thank you very much for coming.
    Mr. Rychnowski. Mr. Chairman and members of the 
subcommittee, thank you for allowing me to testify today on our 
experiences of the LUCA process. My name is Donald Rychnowski. 
I am the executive director of the Southern Tier West Regional 
Planning and Development Board. Primarily rural in nature, 
Southern Tier West serves three large counties in southwestern 
New York, over 130 local and municipal governments, and three 
Native American Indian reservations.
    Throughout the years we have developed a very respectable 
rapport with the local governments in the Seneca Nation of 
Indians in our region. I am here today to testify on our 
specific experiences with the census and specifically, through 
the LUCA process.
    During the LUCA process, Southern Tier West was made aware 
of many problems that arose with the program. Because of our 
rapport with our local governments, we offered assistance in 
the process. We hosted training sessions and visited 
communities to provide our expertise and experience to them. 
This was all done in an effort to develop a perfect address 
list for our region. We are confident that our efforts greatly 
improved the response rate by municipalities in our region. 
However, the Census Bureau often stymied these efforts, and the 
region fell way short of its goal of a perfect address list.
    We provided training facilities to the Census Bureau on two 
separate occasions for a total of four classes, absorbing all 
of the costs necessary in terms of the training. Southern Tier 
West advertised these training sessions to the municipalities 
and these classes were nearly a disaster for several reasons.
    First, on both occasions, the representative sent by the 
Bureau to teach the class had never taught a LUCA class before. 
When questioning them personally, they complained that they had 
little training, and in both cases were hired for a completely 
different job.
    Second, even though the Bureau was given a count of the 
attendees by us, the instructors always had too few of the 
materials to supply the class with. The materials were designed 
to be a reference to use throughout the process. Less than half 
of our participating communities ever received these materials 
despite promises by the Bureau to forward these additional 
materials at a later date.
    Finally, the training structure often left the 
municipalities out in the cold. Without the training session, 
it was difficult, at best, to participate in the local process. 
After several municipalities complained that they were not 
given a fair chance to participate, the Bureau informed 
Southern Tier West that a training video was now available, but 
the availability of this video was too late in the LUCA 
process.
    This leads to the next shortcoming of the LUCA process; 
simply put, timing. The LUCA waves coincided with the worst 
time of the year for local officials in our region; that is, 
budget preparation and tax collection season. When 
municipalities informed us of the need for an extension, we 
contacted the Bureau. The Bureau stated that no extensions 
would be made. A municipality could submit their address list 
late, and those may or may not be accepted. This alone greatly 
reduced the LUCA participation in our region.
    A community in our region approached the Bureau with what 
they said was a perfect address list from their E-911 system. 
The Bureau refused the list and said they would have to go 
through the same process. Other municipalities also had 
accurate mailing lists. These municipalities were less willing 
to participate in the process.
    A final example of the shortcoming involved the town of 
Olean in our region. The Olean address list was split in two 
phases of LUCA. This meant that Olean had to participate in 
LUCA twice; however, there was an election year between the two 
phases, which further complicated the scenario. The new 
administration came in and decided to participate in the LUCA 
process.
    To this point, the town did not know that they had been 
split into two phases. Our office received a call from the town 
supervisor. The LUCA deadline was growing very near and they 
were having problems. The staff traveled to Olean to find the 
address list with two addresses on it. The Bureau was 
immediately contacted, and at that point it was discovered that 
the town had been split in two phases. The first phase 
contained several thousand addresses, where the second 
contained just two.
    The town officials asked to complete all the addresses in 
the second phase. The Bureau refused. The town offered to work 
directly with the Bureau representative to improve the list. 
Again, the Bureau refused. The town then offered to accompany 
an enumerator through the town when they did their 
verification. The Bureau rudely informed them that the town had 
their chance and it had passed.
    As we reflect on the experiences of the LUCA process for 
the 2000 census, it is imperative to plan for the 2010 census. 
In a way, it deals with the issues we face today. The LUCA 
process was designed to be the single most important aspect of 
the 2000 census. The problem with placing this much importance 
on LUCA is that it relies on municipal participation.
    The accuracy of the census comes down to a part-time 
municipal official in rural areas that knows little about the 
census process and have really had no time to learn about it. 
The inflexibility of the Census Bureau needs to be rethought. 
The weight placed on local governments and no compensation for 
their efforts needs to be rethought. The lack of input from 
regional councils, from local governments, and rural America, 
in general, needs to be rethought.
    The Census Bureau has been stern in its message there will 
be no post census review process after this count. We have 
demonstrated that problems exist with the LUCA process. 
Failures in the Census Bureau and on the part of the municipal 
governments have resulted in a less than desirable product.
    Some States, including New York, recognized the issues that 
LUCA and the lack of a post census review create and provide 
State funds to the regional councils to carry out various 
programs. These efforts are aimed at rectifying the problems 
caused through the LUCA process. These efforts will help, but 
they will not solve all the problems that may lead to an 
inaccurate count.
    The most obvious way the Bureau could have increased the 
participation in LUCA would be to listen to the concerns of 
other local governments and the regional councils. We are aware 
of the importance of an accurate census. The lack of assistance 
to anyone for pre-census activities like LUCA and the 
elimination of the post census review process causes great 
concern for many.
    I am sure you can see how these problems may adversely 
affect our region and result in political, economic, and social 
hardships if we are undercounted. On behalf of Southern Tier 
West Region, I thank you for allowing me this opportunity to 
express our thoughts.
    [The prepared statement of Mr. Rychnowski follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.047
    
    [GRAPHIC] [TIFF OMITTED] T1820.048
    
    [GRAPHIC] [TIFF OMITTED] T1820.049
    
    Mr. Miller. Thank you very much. All of your statements 
will be put in the record. I appreciate receiving them in a 
timely manner, that we had a chance to review them ourselves. 
Thank you.
    Let me first start with a question for Mr. Maguire. You 
made a statement that was confusing to me. The Bureau can't 
give an address. It seems obvious to me. The local community 
does that. But explain to me why you make that statement.
    Mr. Maguire. The reason I make that statement is they say 
that they will give the final determination on addresses. They 
don't even know the addresses. They are using 1990 addresses as 
the basis for this census.
    We don't use 1990 addresses, Mr. Chairman. We use current 
addresses. We still have much of what was there in 1990, but we 
have changed a lot of that. We have had road name changes, we 
have readdressed roads. The Bureau seems to think that they are 
the authority on our county's addresses and every other 
county's addresses and municipal addresses, and they are not.
    Mr. Miller. Do either of you have a comment about that or 
not?
    Mr. Pettit. I just concur. We provide the information to 
the post office. We are legally responsible for the addressing. 
We know when a housing unit is completed or what type of 
construction occurs on the lot, and I think that is what 
excited us the most about this opportunity as it was initially 
presented. It entailed coming to the source to get the 
information rather than us having to justify it and prove it 
after the fact. Unfortunately, that mind-set has not improved.
    Mr. Miller. Were any of you involved in the 1990 census--
directly involved, besides filling out the form?
    Mr. Pettit. Do you mean professionally?
    Mr. Miller. Professionally, yes, in your professional 
position. I think we would agree there is much more effort by 
the Bureau to be involved at this early stage, and I think you 
have had the frustrations, but you are all appreciative of the 
effort, and we all recognize the massive undertaking this is.
    One thing this hearing found is that only 40 percent of 
jurisdictions/communities are participating or at least 
responded. Even though a large percentage of the population 
participated, a lot of small towns, and villages, and such, 
apparently did not. Why do you think so? I know it is just 
anecdotal, but you deal with your peers and professionals in 
other communities. Why are communities not participating? Do 
you have some insight to that, Mr. Maguire?
    Mr. Maguire. I would be glad to comment from my experience 
working for the State of South Carolina. I called over 100 
municipalities and counties asking them to participate in LUCA 
last year when they were to sign up. It was amazing the number 
that had the document, but didn't know that was what it was, 
because the letter was that poorly presented.
    It always starts off, ``Dear Local Official.'' Now, I am 
sure those of you in Congress get letters that are very polite, 
always use your name, and you always read them. But if you 
happen to get any mailing that comes out, Dear Official, I 
don't know that you read it personally. Those of us in local 
government surely don't read things that come out, Dear Local 
Official. It also was an extremely bland letter. That is the 
first problem.
    Second, it is unbelievable the number of people that 
received it but didn't understand it--absolutely did not 
understand it. They had been to a meeting, perhaps they read 
the documents that were put out by the Bureau that said we are 
working with the post office, we have got good maps, we will 
take care of the census. If you want to join in, you can and 
add a few addresses. But a huge number of people believed the 
Bureau when the Bureau said, we are in good shape.
    I had heated discussions with some people. I preferred what 
Linda Magers in Georgia did. She works for the legislature. She 
would simply call the appropriate Senate or staff House member 
in Georgia and say, do you know that your local county is not 
going to participate? It is amazing when you call elected 
Representatives how quickly you get response in the local 
counties.
    Not every State had that sort of effort. In South Carolina, 
we did have that kind of effort, as well. Some people did not 
participate even when they signed up, because they got BAS 
maps, the boundary and annexation maps, and thought that was 
the LUCA map, because they came the same month. It was 
extraordinarily confusing.
    I have been living this stuff for 4 years. I even got 
confused in one town that I was called to look at and see which 
maps they were doing. I was halfway through explaining how they 
were going to do LUCA when I said, wait a minute, these are BAS 
maps, not LUCA maps. They came right after they got the letter 
about LUCA.
    Even the people in the regional offices have been confused 
about which program was being mailed out at which time.
    Mr. Miller. Do either of you gentlemen have any suggestion 
of why we are not getting the response?
    Mr. Rychnowski. Well, for one thing, actually, the Census 
Bureau, at least in our region--and in fact, I can talk for 
many of the regions, the rural areas of New York State--there 
is very little, if no, rapport with virtually any Federal 
agency in those rural areas. I mean, they just don't know, and 
there are times when we have to force communities to accept 
Federal grants, because they just don't trust the Federal 
Government--big government, for that matter.
    That is our job. We are supposed to work very closely with 
them. That is the reason we have a local government program. 
The second thing is that the communications were sent, 
virtually, to the wrong person. They were sent to the highest 
official. The highest official, generally, isn't the worker in 
the process.
    In many towns, the worker person is a clerk. Most of the 
time they didn't receive--they didn't see, the worker, the 
person who would actually do the work didn't receive those 
materials because the supervisor, the mayor, or whomever, threw 
them out. So, just as you said, you throw it out because it is 
not personalized.
    Mr. Miller. Go ahead.
    Mr. Maguire. One followup--in South Carolina we offered to 
give the Bureau a list of every highest elected official, and 
they did not want it. They said that is not the way they were 
doing it. During the reengineering conference with the Bureau 2 
years ago when we tried to get them to change LUCA in some 
positive ways, we asked them to put every planning director in 
America, every local planning director, on the list. When they 
send anything to the local official, always send a copy of it 
to the local planning official, and they didn't think that was 
a good idea.
    Mr. Miller. One final question for the three of you. How 
confident are you that the end result of the address lists they 
are going to work with for your areas are going to be the best 
possible? What is your level of confidence for your local area?
    Mr. Pettit. At least from Gilbert's perspective and 
Maricopa County's perspective, I think we can say it is going 
to be much improved over prior experience. I would not suggest 
that by any stretch of the imagination that we are satisfied or 
have a high level of confidence that it is going to be perfect.
    It is virtually impossible to be perfect given the rate of 
growth in the community. But the discrepancies that we have 
seen and reported that we haven't even had feedback on to know 
if our corrections were accepted yet, is leading to a great 
deal of discomfort and uneasiness with what is ultimately going 
to become available and used in the spring of 2000.
    Mr. Rychnowski. We have, I think, a very low confidence 
level. The issue of 500 people which was talked about, which 
may not mean a lot on a State level, it means an awful lot to a 
community. It means a lot in terms of being designated as an 
MSA. And therefore, all those programs that go along with being 
designated as the MSA. So as I said, in terms of the Seneca 
Nation that is also in our region, I know that enumerators have 
been asked to leave the reservation, because the Nation wanted 
to have their own enumerators. Well, the Census Bureau was not 
able to put anyone on right at this time, so there are problems 
across the board.
    These problems are going to continue. There are problems, 
obviously, in the 80 census--in the 90 census and those 
problems are going to continue if there is no real change.
    Mr. Maguire. The one thing that the accuracy of the list 
will depend on is the statement by Director Prewitt that they 
will mail questionnaires to addresses that do not match their 
block canvassing operation, but they will not do followup on 
those addresses. I know for a fact that our addresses will be 
99.9 percent, 100 percent, complete. I mean, we will not miss 
five addresses in Lexington County in what we send in. We have 
that good an information system.
    I also know they will reject many, and we will go through 
appeal if there is time to do it. But if they only mail 
questionnaires and don't do followup, LUCA will have failed in 
many places. In Lexington County, we will have communities that 
will be financially depleted in many ways for years to come. I 
say this knowing that Lexington County is far ahead of the game 
of most counties. Thank you.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, and I want to thank 
all of the panelists. I know you traveled a long distance to be 
here, and you are out in the trenches getting the job done, and 
we really appreciate your being here.
    Particularly, I would like to welcome Mr. Don Rychnowski 
from the great State of New York, which is also my home State, 
and offer my words of helping you in any way. I will even 
travel up there to have a regional meeting with the people 
involved and see if I can do my own planning/training session 
with you.
    Mr. Rychnowski. Great.
    Mrs. Maloney. If you have any problems in any way, shape, 
or form, you can call me in my office. I have a stake--a 
personal stake--in New York State, and I certainly want to give 
all the help I can to get an accurate count.
    Mr. Maguire, my aunt for whom I am named lives in the great 
State of South Carolina, so I welcome you here today. I just 
wanted to followup on your statement that the Census Bureau was 
just using 1990 addresses. That is where they start. They start 
with the 1990 addresses. As Mr. Pettit said, they then go to 
the Postal delivery sequence file, which was an improvement, 
and they go through that. Then they follow it up with block 
canvassing.
    So, they are following it up with a lot of things, and they 
have to keep the list because it has to be accurate and they 
have to confirm it. I remember one of your earlier statements. 
You said they should just trust us and we will give them the 
list. But it reminds me of a story one of the census officials 
was telling me. They were working on a count and a local 
government was saying we want 20,000 people from our town. They 
counted, and they could only find 9,500. The local people were 
saying, well, go back out there and find 500 more. We need 500 
more. We wanted a 20,000 address list here.
    So, I think that you have to have a balance of getting the 
address list to the Census Bureau. That is why we do LUCA 
early, so that you can get that list, look at it, and say 
whether it is accurate or not and they can double confirm it. 
The point is that they have to have that confirmed list. I just 
wanted to add that.
    Mr. Pettit, we had a field hearing in the great State of 
Arizona, which was wonderful. I love your State. We went to an 
Indian reservation--great. And part of the testimony was on how 
greatly your State has grown in comparison to others. Did you 
testify at that hearing? You may have been there.
    Mr. Pettit. No, I didn't.
    Mrs. Maloney. They had a lot of charts showing how much the 
population had grown. It is phenomenal, absolutely phenomenal. 
One of the things that they talk about is that the Census 
Bureau has a new program for new construction. So, what about 
that which is added after March? That, I think, is a very 
legitimate point.
    It is my understanding they have a new construction program 
where they go right up to census day on new construction. And I 
would like a copy of that program to be in the official record, 
so that we have it right next to your testimony to show that 
they are going back on that official count.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.050
    
    Mr. Miller. No objection.
    Mrs. Maloney. I really want to go back to New York, because 
I want to help New York in any way, let me tell you. I was just 
looking at this press advisory, and it talks about local 
efforts. I mean, everything has got to be a team spirit, you 
know. We need the local governments to participate and to help 
us. It talks about the State budget, and it talks about 
California, which has allocated $24.5 million just to run 
census promotional materials.
    On the other hand, New York State has only $347,000 for 
census-related expenses. I am going to raise this at the 
bipartisan meeting of my delegation that possibly New York 
State should have more of an effort in promoting and working 
with local governments as California is. We are slated to lose 
population, to lose representation. As we all know, that is 
tied to the dollars that our local governments, our cities, and 
our counties need. So, getting an accurate count is so 
important really for getting the dollars where they are 
supposed to be and getting the population counted.
    You said part of the problem is--I am quoting from your 
testimony--you said the accuracy of the census comes down to a 
part-time municipal official that knows little about the census 
process and has no time to learn about it. I think that is a 
very important statement. Earlier the Director said they didn't 
build into their budget moneys to really go out into the 
localities and, you know, give staff assistance to localities.
    As I mentioned, some of the States are doing this, such as 
California. $24.5 million for census-related promotion and 
assistance is a serious commitment. Do you think that is 
something we should be looking at on the Federal level?
    Mr. Rychnowski. Actually, yes. I also am a member of the 
National Association Development Organization, which had 
proposed to the Census Bureau utilizing these development 
organizations, regional councils, councils of government, et 
cetera, across the Nation as part of the process, the census 
process. Because we are closer to those municipalities, we can 
walk into the Seneca, into the Reservation, easily without 
having any problems. We can work with church groups because we 
are there. We are part of those church groups.
    My understanding of the comment was that there were no 
funds available for this kind of activity. I would say that 
having seen the array of toys that were produced by the Census 
Bureau--stress balls and cup holders, and a variety of other 
things--that there probably were some funds available.
    And about your point about New York State, yes, I do agree 
that New York State is late getting into the process of 
providing assistance through some financial way. But what is 
not reflected in the figure that you quoted that there were 
other funds that have been allocated to the New York State 
Association of Regional Councils.
    Mrs. Maloney. Did that cover the Census Bureau--did the 
Census Bureau fund the Association of Regional Councils?
    Mr. Rychnowski. No.
    Mrs. Maloney. The State did?
    Mr. Rychnowski. New York State did, yes. And that is 
different. That is a higher figure now.
    Mrs. Maloney. Really?
    Mr. Rychnowski. Closing at about $800,000.
    Mrs. Maloney. Really? OK. I am glad to hear that. I just 
wanted to mention the chairman and I are working together. We 
are going to have a meeting coming up soon where we are 
inviting all of the Members, Democratic and Republican, to come 
together. I heard your statement about getting elected 
officials involved and having them call the professionals, that 
this really has an impact. We are going to be trying to get a 
partnership going with all of the Members of Congress. They 
should in turn go back and meet with their local offices, and 
they should be getting the elected officials involved.
    I wanted to mention one program that I think is great. I 
happen to have some copies here that I brought to give to you. 
It is called Census in the Schools, and this was mailed to 
every principal, and 40 percent of the teachers, and all the 
teachers in the undercounted areas. It's a curriculum to take 
into the schools to make the young kids aware of the census.
    My daughter came home with a mathematical problem on census 
day the other day. Her teacher is using this material. It also 
has material in Spanish and English for the young people to 
take home to their parents on ``Did you get your form, are you 
filling it out?'' I just think it is an innovative new edition.
    I really want to offer to Mr. Rychnowski, if you would 
like, I would be delighted to invite the chairman to join me in 
going up to your area----
    Mr. Rychnowski. Great.
    Mrs. Maloney [continuing]. And have a meeting with the 
local people, the local elected officials, the local census 
takers, and the local people involved, because I know that it 
is a hard job, and we want to help you in any way we possibly 
can. I used to represent a councilmanic district within the 
boundaries of Congressman Rangle's district, and I was very 
involved in the 1990 census. He would pull us all together, all 
the elected officials and community leaders, and say let's get 
out there and get your relatives hired as these census takers, 
and what are we doing to get the accurate count. Every month we 
would have these meetings, and I thought, wow, we are on top of 
the game. And then it came back that Mr. Rangle's area was one, 
I think, second to the lowest in accurate count in the Nation. 
It was undercounted.
    So, no matter what you do, it is hard to get certain places 
where people won't answer their doors and this type of thing. 
Whatever we do, we just have to do more of it. New York State, 
of course, I am partial, I think is such a beautiful, wonderful 
State, especially upstate New York, I think is gorgeous. So, we 
have got to get an accurate count so that we have our schools 
and our hospital centers--I love Arizona and South Carolina, 
too. I go to see my relatives there. And Arizona, we had a 
great time out there, didn't we? You have got the best climate.
    I just have one last question. I hope you will come up 
there with me for an upstate meeting in your region.
    Mr. Rychnowski. Great.
    Mrs. Maloney. We would love to do it. We have heard from 
the professionals earlier. I think they are really trying and I 
think that the GAO said they have made some progress. I just 
would like to hear from all of you, because you are out there 
on the front line. You understand, they have to keep that final 
list because they have to double-check it, because we have to 
have this accuracy.
    But do you have any ideas of how we could improve LUCA? 
That is my final question. I believe my time is up, and I would 
just like to ask all three of you to let us know what it is we 
should be doing to help the Census Bureau do a better job, how 
they could help you better. We have heard it throughout your 
testimony, but if you would like to give any more comments on 
it?
    Mr. Maguire. At this point we need to know what evidence 
will be accepted that proves an address in the appeals process. 
We are that close to midnight. We know what our addresses are. 
We know they won't find them. We know we have lots of different 
proofs. We have aerial photos, we have tax bills, we have 
pictures, we have inspectors who have certified for occupancy 
on housing. I have asked them what proof they will accept 
because we have got all of it. We even have high school 
students going out verifying sites.
    Mrs. Maloney. Do you know something? I am going to go to 
South Carolina and verify some of these sites.
    Mr. Maguire. We would like for you to.
    Mrs. Maloney. I would like to go see my relatives there. I 
tell you the truth. You have some sites that you have told the 
Census Bureau, this person or this house exists, and they are 
saying they disagree. I will personally go out there. I mean 
that. I can't do it when we are voting, but when we are out, 
when we are on recess, I will go if you get me, and the 
chairman--maybe I can get him to go down there.
    My aunt is a good cook. Do you like South Carolina? I will 
personally go. When you say you have got an address and you 
have told them this address exists, and they come back and tell 
you it doesn't exist, I will personally go and walk through the 
field, through the back road, up the tenement staircase, 
wherever it is, I will personally go and be with you to prove 
that the person exists.
    Mr. Maguire. I would be glad for you to.
    Mrs. Maloney. OK. And I mean that.
    Mr. Maguire. Just be sure you allow enough time. It may 
take a week to visit all of them.
    Mrs. Maloney. I can give you 2 days, not a whole week.
    Mr. Maguire. We will start early and run late.
    Mrs. Maloney. Two days from me, 2 days from him. OK? Fair 
enough.
    Mr. Maguire. Thank you.
    Mrs. Maloney. I can't promise his time--two from me.
    Mr. Pettit. I think from Arizona's perspective, we are 
census-sensitive. We know the value of that information. We 
participate. We have allocated resources.
    It may not show up in the line item in the State budget 
because we are committed at the local level. We are talking 
about municipalities that have hired people over the past 2 
years to work as a partner in this partnership, but there is no 
communication back to let us know whether our partners are 
accepting the information. Meeting the deadlines is key.
    You referred to this new construction program. We still 
don't have anything in writing about it yet at our level. We 
have been told that it is going to be coming out somewhere 
around October 15, but that is also in the same timeframe, plus 
or minus 30 days, when we hope to start getting information 
back on what our census, LUCA 2000, or LUCA 1998, or whatever 
we are going to call it, is going to look like.
    If we could develop a more sustainable and automated 
process to communicate addresses to the Bureau that they will 
accept--the post office accepts our addresses. The Census 
Bureau does not. The post office accepts our street maps, 
emergency services accepts our street maps. The census does 
not.
    There needs to be a cleaner line of communication, not only 
to improve LUCA, but for the future. Make sure that as we annex 
another 1,200 acres, like my council did last night just as I 
was leaving to catch the airplane, that is communicated to the 
Census Bureau and it is incorporated and is accepted at the 
point in time in which the transaction is completed, and not 5 
years later if we do a special census, or 10 years later if we 
wait for the decennial census. The communication and the 
feedback loop is really missing in this particular process.
    Mrs. Maloney. I would like to say that when we had our 
hearing, I was very impressed with the dedication of the 
Members of Congress from your area. They were very informed and 
the panels were very informed. And obviously, it is an issue of 
great concern to Arizona. I would just suggest that if you have 
any problems, I would go directly to your Congress people and 
get them to intercede for you. I just know that they are 100 
percent behind it just based on the amount of enthusiasm that 
they were showing at that meeting.
    Mr. Rychnowski. My organization is fairly lucky in terms of 
relationships to the other regional councils across in the 
Nation in that we had some flexibility, the ability to provide 
some assistance to our local governments, in that we already 
have local government programs.
    Many of the regional councils across this Nation do not 
have that flexibility. Basically, most regional councils work 
on a contract basis, 100 percent of their time is contracted 
for economic development or a particular purpose for a 
particular State or Federal entity.
    We need to have more local assistance early in the 
process--in the LUCA process, talking about 2010. I hate to say 
it, but this is the fourth census I have been involved 
professionally in. No matter how we may evaluate those other 
three, there was a series of meetings going on 4 years before 
the census. This time it was not.
    As I said, we need to work very closely. We need to have 
partners. I mean, it can't be a one-way partnership, which is 
kind of what I assess this one as, as sort of all give and no 
take, at least from the part of the locals. So, starting early 
and more technical assistance is basically what I think we 
need.
    Mrs. Maloney. I hope the chairman will join me in a public 
hearing in upstate New York Regional Council.
    Mr. Rychnowski. Good.
    Mrs. Maloney. Really. I think that would be a good use of 
our time.
    Mr. Miller. We have had several pre-field hearings, one in 
Phoenix, and it was really with the tribal leaders, and we did 
visit an Indian reservation. There are unique problems that you 
have in New York as they have in Arizona. We were in Miami to 
see the turns of inner-city areas, and we were in Wisconsin to 
see some rural areas. So, we have tried to go out, but we also 
appreciate you all making the effort to come see us, and we 
thank you very much for being with us today. Thank you.
    [Followup questions and responses follow:]
    [GRAPHIC] [TIFF OMITTED] T1820.051
    
    [GRAPHIC] [TIFF OMITTED] T1820.052
    
    [GRAPHIC] [TIFF OMITTED] T1820.053
    
    [GRAPHIC] [TIFF OMITTED] T1820.054
    
    [GRAPHIC] [TIFF OMITTED] T1820.055
    
    [GRAPHIC] [TIFF OMITTED] T1820.056
    
    [GRAPHIC] [TIFF OMITTED] T1820.057
    
    [GRAPHIC] [TIFF OMITTED] T1820.058
    
    [GRAPHIC] [TIFF OMITTED] T1820.059
    
    [GRAPHIC] [TIFF OMITTED] T1820.060
    
    [GRAPHIC] [TIFF OMITTED] T1820.061
    
    [GRAPHIC] [TIFF OMITTED] T1820.062
    
    Mr. Miller. We will have our next and final panel. If you 
all want to just remain standing, as part of the procedures we 
have in this particular Government Reform Committee, we do 
swear in our witnesses. Raise your right hands.
    [Witnesses sworn.]
    Mr. Miller. Thank you. Please be seated. Thank you for 
being here today, and also, thank you for sitting through the 
first 3 hours of hearings. I don't know if you all have been to 
congressional hearings before. In one way, we are lucky, we 
have only had one series of votes. But these hearings are very 
valuable to us, even though just two of us are here--because 
other ones and a lot of staff are here, too--to get a better 
insight and understanding.
    And I think the last panel is important because you have 
the direct experiences. I think it is very important that we, 
in addition to doing field hearings, have people that can come 
here and tell us their experiences, and concerns, and problems, 
and ideas, and suggestions. This is a very good format.
    I thank you both very much for being here. Ms. Heinz--my 
eyesight is not that great--would you like to give an opening 
statement, please? And your official statement will be part of 
the record.

   STATEMENTS OF JESSICA HEINZ, LOS ANGELES CITY ATTORNEY'S 
OFFICE; AND MICHEL LETTRE, ASSISTANT DIRECTOR, MARYLAND OFFICE 
                          OF PLANNING

    Ms. Heinz. Thank you very much. Thank you, Mr. Chairman and 
Mrs. Maloney, for allowing me to testify to the committee. I am 
Jessica Heinz, an assistant city attorney for the city of Los 
Angeles, and I have been involved in census issues for the city 
since 1988. I have been the legal advisor for the city's 
technical and outreach projects in both the 1990 and 2000 
census.
    The city of LA has been working together with the Census 
Bureau as a participant in the LUCA program as authorized by 
the passage of the Census Address Improvement Act, and the law 
has allowed the city to share its own address list with the 
Bureau and in turn review the address lists prepared by the 
Bureau for census 2000.
    As you know, the LUCA program is divided into several 
phases. In phase 1, in order for the city to get ready for all 
that work, we started with our 1990 census address file and 
updated it with our Department of Water and Power electric 
meter file and several other address lists that were used by 
various city departments.
    When the Census Bureau gave us their LUCA file, it 
contained 1,351,815 addresses for the city. Our records showed 
1,483,904 addresses for the city. In November 1998, after 
comparing their list with our list, we submitted 196,690 
addresses, which we felt were missing and needed to be added to 
the Bureau's list.
    Both the Census Bureau's file and our file were matched to 
the Postal Service address file for accuracy.
    [Tape 2, side 2.]
    Ms. Heinz. There really needs to be another check done to 
be sure there are residences or other establishments that are 
on that mailing list.
    The next phase of LUCA began this past spring, and the 
Census Bureau conducted a full field verification of the city 
and Census Bureau addresses. Even after that process, we were 
told in the summer that there remained 135,570 city addresses 
which the Bureau was unable to verify as residential dwelling 
units. After rechecking our file with the Department of Water 
and Power Electric Meter file, we decided that those 135,000 
plus were still in dispute.
    In order to resolve this substantial number of 
discrepancies, the city's technical team and the regional 
Census Bureau staff met to discuss what method we should use to 
resolve the conflicts. The Bureau invited the city to assign 
staff as observers to accompany the Bureau in this effort.
    On September 9, the regional Census Bureau provided 
training to 42 city employees who were all sworn in, and we 
were assigned to one of four census field offices in the Los 
Angeles area, and we were paired up with a Census Bureau 
employee, and we began work to resolve the disputed addresses 
on September 13. The bulk of that work was completed last week 
and there is a small team that is continuing the work this 
week. We will have completed all 135,000 plus addresses.
    While we don't yet have the final information as to the 
total number of addresses which are to be deleted, redesignated 
or retained as a result of the field canvass process, we have 
learned a great deal about the nature of the discrepancies 
between the city's list and the Bureau's LUCA file.
    As part of the city's team, I received the Bureau training 
and I participated in the field canvass. I also received 
reports from other city staff regarding their observations in 
the field. From what we can determine thus far, the 
discrepancies fall into three categories.
    There are many commercial buildings which are listed as 
residential units on the city's electric meter file. By going 
out there, we could see what the problem was.
    There were several geo-coding errors, some of large 
significance, where trailer parks, for example, were put into 
the wrong block. That accounted for a substantial amount of the 
problem.
    In addition, there is new construction that had not yet 
been added into the LUCA file.
    Our experience in this process with the Bureau thus far has 
been very positive. Staff were well trained, and for the most 
part, diligent and enthusiastic about the assignments they were 
undertaking. We believe that our participation in the project 
will help, perhaps even alleviate, the need to pursue 
administrative remedies provided under the Commerce 
Department's regulations to resolve disputes.
    Perhaps most importantly, the Bureau's willingness to allow 
us to review their work in the field as active participants has 
done much to cement the partnership between the Regional Census 
Bureau and the city of LA's census outreach project. We expect 
that spirit of partnership will prevail in the next several 
months as we progress to the actual enumeration.
    Let me add, since you have raised the question of post 
census local review, that I don't believe that such a process 
will enhance the accuracy of the census if it is undertaken and 
implemented at this time. It will delay the delivery of the 
final data needed, and I think that in testimony I presented to 
you several months ago, I emphasized that we only added a very 
small number of addresses and persons as part of the census 
local review in 1990.
    It happens too late in the process, and by the time you go 
back out to find who is living at those addresses, people have 
probably moved, at least in a place like Los Angeles, where we 
are very transient.
    I think that local governments are better served if we can 
get information during the nonresponse followup stage regarding 
the areas of the city that are slow to return their 
questionnaires so that we can target our outreach in that area. 
I would like that kind of information on a flow basis as it 
comes in from the Bureau, which I think would be able to be a 
lot more helpful.
    In addition, I think one of the reasons that local 
governments may not participate in the LUCA process is because 
you basically have to be computerized in order to help. In 
addition, if your jurisdiction isn't over 50,000 or more, I 
don't think you get as much financial benefit from the Federal 
grants since there is some cutoff on population size. So, they 
may not be motivated that way.
    Anyway, thank you very much for this opportunity to discuss 
the LUCA process, and I will be happy to answer any questions. 
Thank you.
    [The prepared statement of Ms. Heinz follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.063
    
    [GRAPHIC] [TIFF OMITTED] T1820.064
    
    [GRAPHIC] [TIFF OMITTED] T1820.065
    
    [GRAPHIC] [TIFF OMITTED] T1820.066
    
    [GRAPHIC] [TIFF OMITTED] T1820.067
    
    [GRAPHIC] [TIFF OMITTED] T1820.068
    
    [GRAPHIC] [TIFF OMITTED] T1820.069
    
    [GRAPHIC] [TIFF OMITTED] T1820.070
    
    [GRAPHIC] [TIFF OMITTED] T1820.071
    
    Mr. Miller. Mr. Lettre.
    Mr. Lettre. Thank you, Mr. Chairman and Congresswoman 
Maloney. My name is Michael Lettre. I am the assistant director 
for the Maryland Office of Planning. We have had a long 
involvement with the Census Bureau as the major agency that has 
been involved with the statistical dissemination of census 
data.
    My history with the Office of Planning goes back to 1981, 
so I was involved with redistricting after the 1980 census, 
with promotion, and outreach, and technical assistance 
activities for the 1990 census, and I am serving as the 
Governor's technical coordinator for the 2000 census.
    We have heard a lot of testimony this morning and early 
afternoon. There are two words that come to mind--you have my 
official testimony, but I may deviate slightly from that--one 
is partnership and the other is opportunity. We took those 
words very seriously in Maryland when we chose to be very 
proactive in terms of our participation in the LUCA program.
    We also recognized the LUCA program had to be taken in the 
context of the overall census process, that it was not a cure 
for every problem. It was an opportunity to make an impact, and 
we promised ourselves that we would maximize that impact given 
the resources and the time that we had to do that.
    One of the things we did from the outset is to accept where 
the Census Bureau was and the products that they would provide 
to us. Ultimately, we found the products provided through the 
LUCA program very useful, very usable.
    In particular, we recognized that we were going to have to 
look at their address list. We were going to have to compare 
that to local address lists. We were going to have to identify 
problems with that list. Where we found addresses that needed 
to be added, we were going to have to assign them to the census 
geography, and we would have to report them back in the format 
that the Census Bureau asked if we wanted to increase and 
maximize the chance that the Bureau would accept the additions 
and corrections that we made.
    Now, that is a big assumption that many jurisdictions 
really didn't want to make. If you went into the program 
unwilling to sort of play by the rules, then you were off to a 
bad start, because you were spending your time, in essence, 
fighting the system as opposed to using a very useful product 
that was provided.
    The second thing that we realized is that if you were going 
to take advantage of this, and in Maryland where government is 
largely county government and most of the addresses are outside 
of incorporated boundaries--and I include Baltimore City as a 
county because it is officially a county as well as a 
municipality--then you were going to have to have three things 
if you were going to be able to be successful in this effort.
    And these were stressed by us; that is, the State, when we 
participated with the Bureau in all of the local training 
efforts. We made it very clear to local jurisdictions right up 
front, what they were going to do, what the Bureau was going to 
do, and what we were going to do.
    For a local jurisdiction to be successful, one, it had to 
have access to a good address list. Because they were going to 
be reviewing tens of thousands, if not hundreds of thousands, 
of addresses in a very short period of time, that address list 
had to be in a form that you could look at, and it couldn't 
simply be a paper listing. It wasn't practical that that was 
the case.
    So, you were going to have to have computer resources. That 
data base would have to be able to be spatially related to 
maps, because you were going to have to assign it the census 
geography. You were going to have to have the computers, the 
software, and you were going to have to have people that knew 
what they were doing and were dedicated to doing it.
    Without those things, then for many jurisdictions the 
perfect product from the Census Bureau simply would go 
unattended, because there would be no way to use that. That is 
particularly true anytime you are dealing with thousands, if 
not tens or hundreds of thousands, of addresses. There simply 
is no way to use a paper product over a short period of time to 
manage such a list.
    The third thing, in addition to the Bureau providing the 
product and the local government committing to participating 
and being an active partner, was what the State was going to 
do. We are fortunate in Maryland that we have been actively 
involved in developing a geographic information system, in 
which we have automated all of the State's property records 
along with property maps for all jurisdictions in Maryland. We 
were able and committed to making this electronic data base 
available in a format that could be used by local government 
either as the primary instrument for their LUCA review or as a 
supplemental instrument.
    We worked with 18 counties out of 24 that represented over 
95 percent of the State's addresses, and we developed a product 
that was a desktop mapping product that they could use on their 
desktop that was organized with the LUCA data product, with 
1990 census housing counts, and with our count of parcels, both 
individual addresses and aggregated addresses, that conformed 
to census geography.
    This enabled jurisdictions to immediately do two things. 
One is that they could pinpoint areas of major new development 
since the 1990 census. We went in initially with the thought 
that our major goal here would be to check areas where there 
had been substantial changes or growth since 1990, and that 
that would be an area where a jurisdiction could focus in on to 
make sure the Bureau, in fact, through their Postal work, was 
updating their addresses.
    The second thing we found after we actually got the census 
file is that there were some areas where there were major 
discrepancies even where there had not been substantial 
development since the 1990 census. So, we were able also to 
provide local jurisdictions with the following indicator; that 
is, the difference between the LUCA count of addresses and the 
local count of addresses that we had from the property or tax 
data base. And also, the difference between the LUCA count of 
addresses and the count of addresses, or housing units, from 
the 1990 census.
    What these indicators, using the mapping system, allowed 
local jurisdictions to do is to target in on the most severe 
problem. This meant that whatever time a local jurisdiction had 
to spend on the LUCA project they could maximize their 
utilization of people resources and computer resources to try 
to attend to the most severe problem.
    In addition, we got the regional office in Philadelphia to 
accept a list of 339 census blocks that we identified in these 
18 jurisdictions where there were significant discrepancies 
between our count of addresses and the Census Bureau's count of 
addresses. We got them to commit, even if that jurisdiction 
never submitted anything under LUCA, that the Census Bureau as 
part of their canvassing operation would pay particular and 
more detailed attention with their field people when they went 
out and canvassed in those areas.
    So, we didn't take the LUCA program simply as we got it. We 
played by the rules, we submitted submissions and had local 
governments do it where they maximized their utilization of 
time and resources. And we also provided the Census Bureau 
Philadelphia Regional Office with collateral information of 
significant problem areas.
    The results of this are, you know, in some cases somewhat 
alarming. I mean, we did find real unevenness in the quality of 
the product. There were some counties, both counties with rapid 
growth and counties without significant growth, where the 
product was very, very good. And there were some counties, and 
in some portions of counties, where there were real problems; 
problems in both missing new development and problems even in 
having addresses associated with pre-1990 development.
    But we do feel that the approach we took maximized the 
chances of getting attention in these areas, both because the 
local government submitted addresses and because we made the 
Census Bureau aware of these problem areas.
    We also encountered another problem that was indicated 
here. There are clearly some jurisdictions that have done 
wholesale readdressing, both numbers and sometimes street names 
as a result of the 911 process. There were instances where the 
Census Bureau file reflected addresses that were pre this 1990 
911-readdressing. We made the Bureau aware of those, and as a 
result, we do feel that the canvassing operations and the other 
operations that the Bureau will undertake will increase the 
probability of having an impact.
    In conclusion, I think everything has to sort of be 
evaluated in its time. We could always play the game of what we 
could do, you know, should haves--could haves. What we really 
did--and I can say this based on the 1990 experience and on the 
2000 experience--we took maximum advantage of where we were at 
this point in time to have the most positive impact that we 
could with the LUCA program, knowing that we would clearly draw 
the Bureau's attention to problem areas, make sure they were 
attentive to those problem areas, and assure that the LUCA 
program in conjunction with the other efforts of canvassing, 
and working with the Postal Service, and the new construction 
program would maximize the chance of having a state-of-the-
art--that is as good as the state-of-the-art can be today--
address file going into the 2000 census.
    And we feel confident that we did have an impact. There 
were 130,000 addresses that we recommended. Again, this is 
accumulative of 18 counties and 67 municipalities reporting. We 
had very a high participation rate, over 95 percent geographic 
coverage. Again, the number of local governments participating 
was less than that, but in terms of address coverage, very, 
very high.
    What we really did was use state-of-the-art resources 
combined with a partnership effort that involved State, local 
and the Federal partnership. I must say, what we did is we 
really worked it, and we didn't complain. We just did what we 
could do, knowing the limits of both the time and the resources 
that were there.
    There were instances in which we provided assistance to 
local governments and they clearly were not able to take full 
advantage of it. This does require strong technical skills. It 
requires computer resources to make it work. There is no 
getting around that when you are reviewing thousands of 
addresses and also geographic location of those addresses.
    So, we do feel that it was a workable program, that the 
Bureau provided products that could make a difference, and that 
we took the steps that we could given always the limits of 
time, money, and resources to get as much benefit as we could 
out of the program. We feel as though our participation was, 
one, rewarding and, in fact, will make a difference. Thank you 
very much.
    [The prepared statement of Mr. Lettre follows:]
    [GRAPHIC] [TIFF OMITTED] T1820.072
    
    [GRAPHIC] [TIFF OMITTED] T1820.073
    
    [GRAPHIC] [TIFF OMITTED] T1820.074
    
    [GRAPHIC] [TIFF OMITTED] T1820.075
    
    [GRAPHIC] [TIFF OMITTED] T1820.076
    
    Mr. Miller. Ms. Heinz, since you brought up post census 
local review, I am just amazed how people don't want to have a 
chance to have any input at the end of the process. I am just 
amazed that you say the census is going to be so perfect we 
don't need to worry about any mistakes being made because they 
are not going to make any mistakes. They are not going to leave 
off any apartment buildings. They are not going to leave off 
any subdivisions. So, we don't want to have that opportunity to 
check that. But that is your opinion and that is OK.
    Let me ask----
    Ms. Heinz. Could I answer that for just a----
    Mr. Miller. Yes. Why would you not want to have a chance to 
check a mistake? I don't understand that.
    Ms. Heinz. The problem is the timing. It is going----
    Mr. Miller. They can find time. They found it in 1990. I 
know this has, you know, been politically advised, but go 
ahead.
    Ms. Heinz. The issue is not so much even the political 
timing of it, but the fact that the census is supposed to 
happen in April. By the time you go through the local review 
process, at least in 1990, we didn't get the data until 
September. Even then, if we identified that there were missing 
units somewhere, you go back and you send enumerators out in 
September to try to find folks and they are not going to be 
there. That is the problem.
    That is why I said I would really like to have information 
during nonresponse followup that we are not getting back forms 
from the census tract so that we can go out and try to find out 
the problem.
    Mr. Miller. I believe there is time to do it and I am just 
amazed that you don't want to have that participation. So you 
are very satisfied with LUCA, that it has corrected all the 
problems so you shouldn't have an undercount in Los Angeles. Is 
that what you are saying?
    Ms. Heinz. Unfortunately, I think we will still have an 
undercount in Los Angeles.
    Mr. Miller. Well, at least you have a perfect list to start 
with, because you have corrected all the mistakes. Is that 
right?
    Ms. Heinz. I don't think the list will be entirely perfect, 
but it is definitely an improvement over 1990. The fact that we 
were able to understand the nature of discrepancies is very 
important, and that is a result of the Census Address List 
Improvement Act. We were able to go with the Bureau to see how 
our list had incongruities with the Bureau's list, and now we 
know why. So, that is important.
    Mr. Miller. Mr. Lettre, you represent the State. So, do 
they have a budget within the State, like California allocates 
certain money just for its census. Is there a budget for that? 
I am just curious.
    Mr. Lettre. Well, we have a State planning agency, which 
represents a large State commitment to good planning. That 
agency has had a very active--along with other State agencies--
an active computer mapping system. Fundamental to working with 
census data is the ability to display addresses geographically 
on a map, whether they are the Bureau's or whether they are 
your own. We have a very active commitment to that.
    It parallels, but is not really funded in any way by the 
Census Bureau. What it does do is provide a resource that 
really complements what we are trying to do with census 
activities. And it is housed in the same agency so that it 
helps with coordination----
    Mr. Miller. What agency--explain that to me.
    Mr. Lettre. It is the Maryland Office of Planning, and it 
is an agency that is involved with land use planning.
    Mr. Miller. All of the planning agencies in the State?
    Mr. Lettre. All the planning agencies really--I mean, there 
are local planning agencies in both municipalities and 
counties. We have a very active relationship with them and, of 
course, that is where the burden of local review typically 
fell. So we had, you know, a network that we could work with 
and we had the technical resources that we could work with. 
Those are advantages. I mean, there are advantages that we have 
made and advantages that we chose to use. We did use them 
actively.
    Mr. Miller. As far as participation in LUCA, we were 
talking about that earlier, and 40 percent of communities 
around the country participated as far as following through on 
it. I sense that Maryland had a little bit higher success rate. 
Is that----
    Mr. Lettre. Well, like I said, we had 95 percent of address 
coverage, at least 95 percent of address coverage. We had 18 
counties out of 24, but the 6 that didn't really were counties 
that largely were part of the 1999 LUCA. They were largely 
rural counties and most of the geography that would have been 
covered in the 1998 were a few small towns, and so they were 
covered.
    Also, we have counties--since we are not wall-to-wall 
municipalities, we have some good working relationships where 
counties assisted municipalities within their jurisdiction. 
Don't forget, we have a strong county government system, and 
that is an advantage in a program like this as well.
    Mr. Miller. So you work mainly with counties rather than 
cities. Is that the way it works in Maryland?
    Mr. Lettre. We work with both, but we had a tier system, 
where a municipality could come directly to us because we 
literally provided them with a CD-ROM mapping product that they 
could use on their desktop with a standard computer and very 
inexpensive software. But those municipalities could come 
directly to us, or in some cases they partnered with their 
county government counterparts to do the work. The product we 
gave them was full county coverage, so it included information 
on both the nonincorporated as well as the incorporated portion 
of each one of those jurisdictions.
    Mr. Miller. One final question. Why would people not 
participate--what is your sense?
    Mr. Lettre. Well, first of all, we did have high 
participation.
    Mr. Miller. But those that did not participate----
    Mr. Lettre. What we did is we told jurisdictions right out 
front that there really was only one way to effectively 
participate, and that is you had to have those three things. 
You had to have a good local address list, you had to have a 
smart way of accessing it and using it, and you had to have the 
time and the people to do that, and you had to be committed 
after you were finished to responding to the Bureau in the 
format that they outlined, which was reasonable.
    I am not saying it was the easiest thing to do, but it was 
reasonable, because if you did respond in the format that they 
asked for, you maximized your chance of them either finding 
that housing unit and ultimately accepting it. So, what I am 
saying is we played by the rules. The rules involved both hard 
work and doing what you could do in the immediacy of the 
moment, not what you can do 3 years, 5 years, 10 years from 
now. It was doing what we could do now to make it as good and 
to have as much of an impact as we could.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. And I would like to 
welcome these analysts. They both came here from distances and 
we appreciate your expertise and your testimony today.
    I would like to go back to a statement that Ms. Heinz said. 
She said you could have the address and maybe they didn't fill 
a form out, and then you could go back and maybe they wouldn't 
be there. I know that in 1990, the National Academy of Sciences 
and the Census Bureau said that 70 percent of the undercount 
was in households that received the mailing.
    So in other words, you could have a mailing, or rather an 
address list, that is 100 percent accurate. But if the people 
don't fill it out, and don't send it back, then they are going 
to be missed. I just want to make a question to you for your 
locality. I would like to ask you how much of the undercount 
was in households that received the form in Los Angeles, say, 
in 1990, and just didn't send it back?
    Ms. Heinz. What I understand is about 50 percent of the 
under-count in LA was within household misses. So, the 
household received the form but they didn't list everybody or 
there were nonstandard units within the household and they 
didn't include the people who were living in those areas of the 
household.
    Mrs. Maloney. So, to go back to a statement that Mr. Lettre 
made that you have to see LUCA in the whole framework of a 
total program that is out there, trying to get a local count--I 
know that the Census Bureau and the National Academy of 
Sciences said that 80 percent, I believe, in African-American 
homes received this form and did not send it back. Isn't the 
use of modern scientific methods the only way that you can get 
an accurate count?
    Ms. Heinz. Well, as you know, I was a participant in the 
1990 census and in the litigation regarding the use of the post 
enumeration survey to correct for the undercounts. I reviewed 
the materials that the Census Bureau has produced over the last 
decade, and I firmly believe that the statistical method is the 
only way to correct the undercount; particularly, in areas like 
Los Angeles, where we have large numbers of persons who are 
immigrants, who do not speak English, who do not live in 
standard dwelling units. About the only way that we believe 
that you can count them is through the use of the ACE process 
and the statistical adjustment.
    Mrs. Maloney. Setting aside problems with delays in getting 
LUCA review materials to participants, would you agree that 
having the opportunity to review the census address list, or 
address counts, and submit discrepancies to the Census Bureau 
will result in improvement and a more complete list for census 
2000? I would like to ask both panelists that question.
    Ms. Heinz. Absolutely. Cities need to take advantage of 
this opportunity. Compared to 1990, where all we got was a unit 
count of addresses per block, which we then had to count up our 
addresses and guess what was missing, we now can see the actual 
addresses. In particular, we have an understanding of how our 
system of collecting and having addresses when compared with 
the Bureau's methodology could lead to these discrepancies.
    I really hope that in the future, in 2010, if we have to go 
through this again, our own address list would be that much 
more accurate, because we know now what kinds of things we can 
do to correct it.
    Mrs. Maloney. Mr. Lettre.
    Mr. Lettre. I do think it was a very good opportunity and I 
think it was the appropriate opportunity for this point in 
time. I mean, I think that it made significant advances over 
what happened 10 years ago. Ten years from now, perhaps when we 
do it there will be an opportunity to make it even better. Part 
of that will be not only what the Bureau does but it will be 
also what local governments do; and this is that they will 
presumably have better, smarter computer systems, better 
geographic mapping systems.
    All of those things will allow this to occur in a smarter 
and better way at sometime in the future. I think there were 
opportunities to do it as smartly as you could this time 
around, and I think those jurisdictions that got the most 
benefit from this planned that and, in fact, took the maximum 
advantage they could at this point in time. I believe that it 
has made a difference and it has been a contribution to the 
overall effort to build a quality master address list.
    Mrs. Maloney. Did both of you participate in the Census 
Bureau's training program? If you did, would you comment on the 
training program? If you did not, would you state why you did 
not participate in the training program?
    Ms. Heinz. I participated in the training program. The 
early training that was done at the end of 1998 to describe the 
LUCA process, and also, in the most recent training that was 
done in advance of the field canvass. I thought it was very 
clear what the job of the listers was and I was pleased with 
it.
    Now, the one area where I think we might have used a little 
more assistance was having individuals in the field that spoke 
a greater variety of languages. That is something we need to 
work on.
    Mrs. Maloney. Did you participate?
    Mr. Lettre. Yes. As a matter of fact, our office really was 
the organization that worked with the Census Bureau to 
coordinate all of the training, both identifying the sites and 
locations. We were there at all the training and we 
supplemented the training because we informed the local 
governments of the technical assistance tools that we were 
going to be making available to help them. That was the 
beginning of our formal partnership with them.
    Again, nobody went this alone. Federal, State and local 
sort of joined at the hip.
    Mrs. Maloney. Well, my time is up. Thank you very much for 
your testimony.
    Mr. Miller. Thank you both for being here. You didn't have 
quite as far to drive from Baltimore, but----
    Mr. Lettre. I took the train.
    Mr. Miller. Train, yes. Thank you for being here.
    I ask unanimous consent that all Members' and witnesses' 
written open statements be included in the record. Without 
objection, so ordered.
    In case there are additional questions the Members may have 
for our witnesses, I ask unanimous consent for the record to 
remain open for 2 weeks for Members to submit questions for the 
record, and that witnesses submit written answers as soon as 
practical. Without objection, so ordered.
    Thank you, again, for being here. The meeting is adjourned.
    [Whereupon, at 1:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T1820.077

[GRAPHIC] [TIFF OMITTED] T1820.078

[GRAPHIC] [TIFF OMITTED] T1820.079

[GRAPHIC] [TIFF OMITTED] T1820.080

[GRAPHIC] [TIFF OMITTED] T1820.081

[GRAPHIC] [TIFF OMITTED] T1820.082

</pre></body></html>
